<html>
<title> - BARRIERS TO EDUCATION GLOBALLY: GETTING GIRLS IN THE CLASSROOM</title>
<body><pre>[Senate Hearing 114-746]
[From the U.S. Government Publishing Office]










                                                        S. Hrg. 114-746

                      BARRIERS TO EDUCATION GLOBALLY: 
                     GETTING GIRLS IN THE CLASSROOM

=======================================================================

                                HEARING


                               BEFORE THE



                        SUBCOMMITTEE ON WESTERN

                    HEMISPHERE, TRANSNATIONAL CRIME,

                     CIVILIAN SECURITY, DEMOCRACY,

                    HUMAN RIGHTS, AND WOMEN'S ISSUES


                                 OF THE



                     COMMITTEE ON FOREIGN RELATIONS

                          UNITED STATES SENATE



                    ONE HUNDRED FOURTEENTH CONGRESS



                             SECOND SESSION



                               __________

                               JUNE 15, 2016

                               __________



       Printed for the use of the Committee on Foreign Relations






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








                   Available via the World Wide Web:
                         http://www.govinfo.gov






                        U.S. GOVERNMENT PUBLISHING OFFICE 

28-537 PDF                     WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001


























                COMMITTEE ON FOREIGN RELATIONS         

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               ROBERT MENENDEZ, New Jersey
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts


                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
              Rob Strayer, Majority Chief Counsel        
            Margaret Taylor, Minority Chief Counsel        
                    John Dutton, Chief Clerk        


                 SUBCOMMITTEE ON WESTERN               
            HEMISPHERE, TRANSNATIONAL CRIME,               
           CIVILIAN SECURITY, DEMOCRACY, HUMAN              
                RIGHTS, AND WOMEN'S ISSUES              

             MARCO RUBIO, Floridia, Chairman              

JEFF FLAKE, Arizona                  BARBARA BOXER, California
CORY GARDNER, Colorado               TOM UDALL, New Mexico
DAVID PERDUE, Georgia                TIM KAINE, Virginia
JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts

                              (ii)        

  



















                            C O N T E N T S

                              ----------                              
                                                                   Page

Rubio, Hon. Marco, U.S. Senator from Florida.....................     1

Kaine, Hon. Tim, U.S. Senator from Virginia......................     3

Russell, Hon. Catherine M., Ambassador-at-Large, Global Women's 
  Issues, U.S. Department of State, Washington, DC...............     5
    Prepared statement...........................................     7
    Response to questions submitted for the record to Catherine 
      Russell by Senator Boxer...................................    50

Markham, Susan, Senior Coordinator, Gender Equality and Women's 
  Empowerment, U.S. Agency for International Development, 
  Washington, DC.................................................    10
    Prepared statement...........................................    12

Hiebert, Linda, Senior Director, Education and Life Skills, World 
  Vision International, Washington DC............................    30
    Prepared statement...........................................    32
Ntaiya, Ph.D., Kakenya, Founder and President, Kakenya Center for 
  Excellence, Narok County, Kenya................................    36
    Prepared statement...........................................    38

Stone, Meighan, President, The Malala Fund, Washington, DC.......    39
    Prepared statement...........................................    42




                             (iii)        

  

 
                    BARRIERS TO EDUCATION GLOBALLY: 
                     GETTING GIRLS IN THE CLASSROOM

                              ----------                              


                        WEDNESDAY, JUNE 15, 2016

                               U.S. Senate,
                            Subcommittee on Western
                   Hemisphere, Transnational Crime,
                      Civilian Security, Democracy,
                                  Human Rights, and
                             Global Women's Issues,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:38 a.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. Marco Rubio, 
chairman of the subcommittee, presiding.
    Present: Senators Rubio [presiding], Gardner, and Kaine.

            OPENING STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. Good morning. This hearing of the 
subcommittee on Western Hemisphere, Transnational Crime, 
Civilian Security, Democracy, Human Rights, and Global Women's 
Issues will come to order.
    The title of this hearing is ``Barriers to Education 
Globally: Getting Girls in the Classroom.''
    We will have two panels today. The first is an official 
panel, and it will feature the Honorable Catherine Russell, 
Ambassador-at-Large for Global Women's Issues at the U.S. 
Department of State; and Mrs. Susan Markham, Senior Coordinator 
for Gender Equality and Women's Empowerment at the U.S. Agency 
for International Development.
    The second panel will include Ms. Linda Hiebert, Senior 
Director of Education and Life Skills for World Vision. Ms. 
Meighan Stone is the President of The Malala Fund, which as 
part of her testimony will also be sharing a message from Nobel 
Peace Laureate Malala Yousafzai. And Ms. Kakenya Ntaiya is the 
founder and the President of the Kakenya Center for Excellence.
    And I want to thank you all for being here with us today. 
We appreciate your time. We appreciate your dedication.
    I also want to thank all those who worked alongside my 
staff to make this hearing possible.
    Senator Boxer cannot be here today. But as we all are well 
aware, she has been an extraordinary advocate on behalf of 
women and girls all over the world.
    Senator Rubio. And as kids across America cheer at the end 
of the school year, an annual ritual for many of us, no doubt, 
children in other corners of the globe are denied access to 
education as a result of numerous barriers. And this 
unfortunately and tragically is especially true for girls.
    We are here today to examine some of the most consistent 
obstacles to education, and they include health barriers, such 
as early pregnancy, malnutrition, HIV/AIDS, gender-based 
violence at home or in school, and child early and forced 
marriages; economic barriers that include direct costs such as 
school tuition, fees, materials, and personal needs, and 
indirect costs such as the inability to absorb the loss of 
income or labor contribution; physical barriers, including 
access to all-girl schools; distance and safety between home 
and school; and security issues such as conflict, the threat of 
violence or harassment. These realities result in roughly 31 
million girls of primary school age and 32 million girls of 
lower secondary school age worldwide not attending school.
    I am a father of four. I have been blessed with my four 
children. Two are school age girls and these statistics are 
particularly sobering as each number represents a child denied 
the opportunity to live up to their God-given potential. These 
children demand our attention, which has led us to convene 
today's hearing.
    With the manifold pressing global challenges before us, 
from ISIS and Boko Haram to a global refugee crisis, an issue 
like girls education could easily be overshadowed by the 
tyranny of the urgent. But I will assert and I suspect our 
witnesses today would agree that prioritizing access to 
education for girls globally is critical, not simply on its own 
merits, which are significant, but precisely because of the 
impact it has on so many issues.
    Time and again experts have connected women's education 
with economic empowerment, growth, and ultimately the 
development of local and national governments.
    In addition, higher levels of education have translated 
into reduced maternal and infant death rates, lower rates of 
HIV/AIDS, and superior child nutrition.
    On the flip side, there is also research indicating that 
when children are denied access to education, they are at 
greater risk of exploitation in its many forms, to include 
human trafficking and forced labor and even conscription as 
child soldiers.
    It is also worth noting that many of the same countries in 
the world that are contending with violent Islamic 
radicalization also have low literacy rates. Consider that in 
Afghanistan only 17 percent of women are literate. And as Ms. 
Stone can no doubt attest, the statistics are similarly 
worrisome in Pakistan.
    In these and other countries, access to quality education 
for girls is often difficult to obtain or is limited to 
religious education. Experts have asserted that increasing 
women's access to secular and mainstream religious education is 
an important way to prevent radicalization and that educated 
women are better able to intervene and stop the radicalization 
of their children, thus breaking the cycle of radicalization in 
marginalized communities. This is a complex but important issue 
which I hope we will be able to explore further during the 
course of the hearing.
    Another global phenomenon which demands our attention is 
the impact that various wars and conflicts and violence are 
having on children's education. As one of our witnesses will 
testify, in crisis contexts, education systems are three times 
as likely to be disrupted. A cursory glance at the headlines 
underscores that there are no shortages of crisis situations 
around the world. According to the United Nations High 
Commission for Refugees, nearly half of the 20 million refugees 
under their care are children below the age of 18. Access to 
education for this group is limited, with only 50 percent of 
refugee children enrolled in primary education and a mere 25 
percent in secondary school.
    Today's hearing is going to allow us to explore both the 
many challenges I have already outlined, but just as 
importantly the incredible opportunities that are before us as 
we chart our path forward in anticipation of a day when every 
child, no matter where they live, has access to quality 
education.
    I look forward to hearing from our administration witnesses 
about the scope of the U.S. Government's work in this area. I 
am also interested to hear from our panel of private witnesses. 
You have experience in the field that will contribute greatly 
to what can easily become an abstract policy discussion.
    With that, I would like to turn it over to Senator Kaine, 
who will be filling in for Senator Boxer today, who is also, by 
the way, an incredible advocate on behalf of the children and 
girls around the world.

                 STATEMENT OF HON. TIM KAINE, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Kaine. Thank you, Chairman Rubio.
    And thanks. What a wonderful thing it is to walk in and see 
such a full committee room on an important topic, and in my 
role as sort of designated hitter as the ranking member today, 
I am going to channel two great women, Senator Boxer, who 
worked very hard with Chairman Rubio to get this hearing set up 
and then, unfortunately, at the last minute was not able to be 
here today. But I am also going to try to channel my wife Anne, 
who is Secretary of Education in Virginia, and this is an issue 
that is very, very dear to her heart. And I know she is 
probably sad that Governor McAuliffe is making her do her day 
job in Richmond today rather than being here with us.
    The chairman did a great job of basically laying out what 
is at stake. If girls around the world have a meaningful chance 
at quality education, so many good things happen to them and to 
their societies. Educated women are more likely to build 
businesses and hold jobs and create jobs and earn higher wages 
and help their community and national economies grow. Educated 
women are more likely to seek leadership roles in government 
and advocate for policies that benefit their communities and 
that makes societies more stable. And educated women are more 
likely to have healthier families as child survival rates 
increase the longer girls attend school. And that is so 
important and that results in stronger, more resilient families 
in societies.
    Access to education is more than just a fundamental 
individual right. It is something that works to the good of the 
entire society. Thomas Jefferson, who we revere in Virginia, 
wrote--and it is still in the Virginia constitution--progress 
in government and all else depends upon the broadest possible 
diffusion of knowledge among the general population. Now, he 
lived at a time when he could not have imagined an Internet or 
that all knowledge would be digitized, but he was talking about 
the diffusion of knowledge among everybody. And if that was the 
case, it would not just be good for individuals, it would also 
be good for the society by raising standards and also giving 
people a check against tyranny. The more educated folks are, 
the more they are likely to spot when somebody is oppressing 
them and then stand up and advocate against them.
    My wife Anne and I--and I know my colleagues enjoy this 
too. When we do CODELs, we often will meet with our State 
Department or USAID spectacular public servants abroad and see 
the kinds of programs that the United States invests in. Anne 
and I were in northern Africa in the last couple of years, and 
we spent time with USAID looking at programs that are largely 
focused on education, education of girls in many communities. 
And I saw it also in Honduras as I worked there 30 years ago, 
the work that the U.S. does to advocate for education.
    But, look, I have laid out the clear benefits, but we know 
the benefits; just making that case is not enough because there 
are over 62 million girls worldwide that are completely denied 
any opportunity to go to school.
    Just a couple of points--and this is not to pick on any 
part of the world because we could find some challenging 
statistics anywhere--in South Asia, 60 million girls never make 
it to secondary school. Only 8 percent of adolescent girls in 
sub-Saharan Africa complete secondary school. Chairman Rubio 
mentioned other statistics.
    And then we see atrocities that call and pull on our heart 
strings, the brutal kidnapping of the 300 Nigerian school 
children by Boko Haram, the near assassination of Malala, and 
we are going to hear her powerful story today. And then just 
lesser known day-to-day threats that may not get the headlines 
about people being blocked and then that puts a ceiling on 
their aspirations on what they can achieve for themselves in 
their society.
    And we have seen horrible things in recent years, attacks 
on schools, schools themselves from 2009 to 2013, nearly 10,000 
targeted attacks against schools worldwide.
    The costs of denying girls an education are enormous. For 
every extra year a girl stays in school, her projected income 
increases by 10 percent. For every extra year that a girl stays 
in secondary school, her chance of getting infected with HIV/
AIDS decreases by half. Girls with a primary school education 
are four times less likely to be child brides than those who do 
not have a primary school education. And that is just some of 
the many reasons why we need to champion it.
    One final thing. I really commend the President and the 
First Lady for their Let Girls Learn initiative, and that marks 
a really important step in ensuring that all girls get access 
to education that they deserve. And the administration's global 
strategy to empower adolescent girls is also a really important 
step to address that previously underserved area in our efforts 
to support education.
    Again, this is a hearing that is in the best traditions of 
this committee. You know, the Foreign Relations Committee is 
often about treaties and diplomatic deals, but the work that we 
do to both set an example and then invest in education around 
the globe is one of the most powerful things that we do in 
terms of who the U.S. is in the world and the positive effect 
that we can have on the rest of the world. So I am so glad that 
the chairman and Ranking Member Boxer are scheduling this 
hearing and look forward to talking to the witnesses.
    Senator Rubio. Thank you very much, Senator Kaine.
    So I know, Ambassador, you have a hard stop here in about 
40 minutes--35 minutes.
    Ambassador Russell. I have a little flexibility.
    Senator Rubio. Well, we will work with you on that, but we 
wanted to recognize the witnesses. Just know your statement is 
already in writing and in the record. So if you need to 
abbreviate it, that works for us too. So welcome to the 
committee.

 STATEMENT OF HON. CATHERINE M. RUSSELL, AMBASSADOR-AT-LARGE, 
 GLOBAL WOMEN'S ISSUES, U.S. DEPARTMENT OF STATE, WASHINGTON, 
                              D.C.

    Ambassador Russell. I will speak briefly. But first of all, 
good morning and thank you both, Chairman Rubio and Senator 
Kaine, and Senator Gardner as well, not just for holding this 
hearing on barriers to girls' education, but also for your 
interest in this. We really very much appreciate that.
    We see girls' education as critical to U.S. foreign policy. 
Why? Because the ultimate goal of our efforts is to help 
countries become more stable, more prosperous, and more secure 
by increasing the participation of women, whether that is at 
the peace table, in parliament, or in the economy. It is really 
quite straightforward, as you said, Senator Rubio. Countries do 
better when women do better.
    As just one example, McKinsey recently released a study 
showing that world GDP would increase by $28 trillion by 2025 
if women participated fully in economies. I mean, just a 
staggering number.
    Increasing women's meaningful participation will depend on 
getting girls educated.
    Last year, I visited a girls school in Kenya, and as I 
walked through the grounds with the principal, we came across a 
sign that said ``you are not too young to change your nation.'' 
That sign I saw as both a promise and a warning.
    Adolescent girls are critical to the future of their 
countries, but adolescence really is a fork in the road for 
girls' lives.
    On one path, an adolescent girl will stay in school, she is 
more likely to marry later, have fewer and healthier children. 
If she graduates, she is more likely to earn an income that she 
will invest at higher rates back in her family and her 
community. And I might add that women invest in higher rates 
back into their family than men do. They get their children 
educated and immunized. So we see them as a very good 
development investment.
    The other path is just much harder. When an adolescent girl 
drops out of school, she faces increased risks of gender-based 
violence, of early and forced marriage, of early pregnancy, of 
HIV infection and other maternal morbidities. She is more 
likely to be unskilled, have less earning power, and be less 
able to meaningfully participate in her society.
    Research shows that far too many girls are on that second 
path. A quarter of a billion girls live in poverty.
    More than 700 million girls and women alive today were 
married as children, and if current trends continue, the total 
number of women alive that were married in childhood will grow 
to almost 1 billion by 2030.
    Girls account for more than 70 percent of new HIV 
infections among adolescents in countries hardest hit by HIV/
AIDS.
    An estimated 200 million women and girls in 30 countries 
have undergone female genital mutilation and cutting.
    Of the 13 million illiterate youth around the world, 63 
percent are girls, and 62 million girls, as you both said, are 
not in school, which means they face diminished economic 
opportunities and increased risk of discrimination and 
violence.
    As a country that cares deeply about each individual's 
ability to realize and exercise their rights as human beings, 
the United States plays a very important leadership role in 
supporting these girls and their communities.
    As I said at the outset, this work advances our strategic 
interests as well because by investing in adolescent girls, we 
invest in the future of a country in its peace, its security, 
and its prosperity.
    Keeping girls in a quality education for as long as 
possible is critical, but as you said, it is not easy. As 
today's hearing will show, complex barriers stand in the way of 
girls' education. Many families prioritize education for boys 
and early marriage for girls. Girls are burdened by crushing 
work responsibilities at home or in the market, and if they are 
lucky enough to get to school, they have poor teachers or they 
have inadequate sanitary facilities or they face sexual 
harassment in the classroom or on the way to and from school. 
The barriers vary but the results are tragically the same. 
Girls are held back from reaching their full potential.
    That is why earlier this year, as you said, the Secretary 
launched our adolescent girls strategy--we will make sure you 
have copies. This is the first U.S. strategy. As far as we 
know, the United States is the first country in the world to 
develop a strategy solely focused on the protection and 
advancement of adolescent girls. It sets out a framework for 
the U.S. Government's work that will guide our work for years 
to come.
    I would like to highlight the work we are doing in 
coordination with Let Girls Learn, as Senator Kaine mentioned. 
It is the presidential initiative championed by the First Lady. 
Let Girls Learn is focused on ensuring that adolescent girls 
can get a quality education that empowers them to reach their 
full potential.
    A key part of our approach is that it is holistic. We are 
working to include relevant stakeholders across the U.S. 
Government and beyond to tackle the range of challenges that 
hold girls back. Through the Let Girls Learn Challenge Fund, 
which Susan, I am sure, will discuss in more detail, we have 
selected two focus countries so far, Malawi and Tanzania, where 
we are really trying to take a comprehensive approach to the 
issues facing women and girls, including safety, health, and 
education.
    I just might add this is the first time the U.S. Government 
is approaching an issue like this. We are very excited about 
it. We are slightly daunted, but we are committed to making 
sure this works. And that is what it is really going to take to 
make sure that adolescent girls like the ones I met in Kenya 
and the ones I meet all over the world in my travels are 
getting the education they need to succeed. As that sign said, 
these girls are not too young to change their nation, and it is 
really not too late for us to support them in reaching that 
potential.
    So thank you again for doing this hearing. We very much 
appreciate it.
    [Ambassador Russell's prepared statement follows:]


                  Prepared statement of Cathy Russell

    Good morning, and thank you, Chairman Rubio, Ranking Member Boxer, 
and distinguished members of the Subcommittee for inviting me to 
testify today about barriers to girls' education. This topic is 
critical to our foreign policy goals--and so I'd like to thank you for 
your important leadership on these issues.
    As you know, tens of millions of girls around the globe are not in 
school. 31 million of these girls are of primary school age, and 32 
million are adolescents. The majority of these girls live in sub-
Saharan Africa and South Asia.
    My colleague, Susan Markham, will speak more about the many 
investments the U.S. government is making to ensure girls of all ages 
have access to education, including at the primary level. But what I 
would like to talk to you about today is a new focus area for our 
government--the challenges facing adolescent girls.
    Thanks to concerted efforts by the United States and the 
international community, the gender gap in primary education enrollment 
has narrowed in many countries. But in many societies around the world, 
puberty triggers a marked divergence in the lives of boys and girls, 
usually resulting in greater opportunities for boys and greater 
limitations for girls. That is why disparities appear and widen with 
successive levels of education. In primary education, 66 percent of 
countries have achieved gender parity, compared to 50 percent in lower 
secondary, 29 percent in upper secondary, and only 4 percent in 
tertiary.
    Last year, I visited an all-girls school in Kenya. I can still 
picture the girls lined up in the courtyard, with big smiles on their 
faces. As I walked through the grounds with the principal, we came 
across a sign that said, simply: ``You are not too young to change your 
nation.'' That sign is both a promise and a warning. Adolescent girls 
are the future of their countries, and if that future is going to be 
bright, girls need to reach their full potential.
    When women are able to fully participate in society, their 
communities and economies benefit as well. And yet around the world, 
there are large gender gaps in women's economic, cultural, and 
political participation. The State Department has four lines of effort 
to address these gaps:


   preventing and responding to gender-based violence;

   promoting women's economic empowerment;

   advancing women's roles in peace and security efforts;

   investing in adolescent girls.


    In order for women to fully participate in society, we need to 
support them as adolescents. We've seen how women's' potential is often 
determined during adolescence, which can be a fork in the road for 
girls. On one path, an adolescent girl will remain in school, which 
means she is more likely to marry later and have fewer and healthier 
children. She also is more likely to graduate, ready and able to earn 
an income that she will invest back into her family and community.
    The other path is much harder. When an adolescent girl drops out of 
school, she faces increased risks of early marriage, trafficking, early 
pregnancy, HIV infection, susceptibility to violent extremism, and 
maternal morbidities. She is more likely to be unskilled, have less 
earning power, and be less able to meaningfully participate in society.
    Research shows that far too many girls are on that second path.


   A quarter of a billion girls live in poverty.

   More than 700 million girls and women alive today were married as 
        children--and if current trends continue, the total number of 
        women alive that were married in childhood will grow to almost 
        1 billion by 2030.

   Girls and young women account for 71 percent of all new HIV 
        infections among adolescents in sub-Saharan Africa.

   An estimated 200 million women and girls in 30 countries have 
        undergone female genital mutilation/cutting.

   Of the 13 million illiterate youth around the world, 63 percent are 
        girls.

   And 62 million girls are not in school--which means they face 
        diminished economic opportunities and increased risk of 
        discrimination and violence.


    As a country that cares deeply about all individuals' ability to 
realize and exercise their rights as human beings, the United States 
plays an important role in supporting these girls and their 
communities.
    The human rights of these girls matter deeply--that is certain. But 
we see them through another lens as well: their welfare and empowerment 
will be critical to achieving our goals for development, as well as 
global security and stability.
    While adolescence is a time of great vulnerability for girls, it is 
also the ideal point to leverage development and diplomacy efforts. 
Investments in adolescent girls pay dividends in the peace, security, 
and prosperity of communities and countries. To break the cycle of 
poverty, our efforts must reach girls before they arrive at this 
intersection of adolescence and follow them until they complete their 
education.
    Thanks to research by the World Bank and others, there is a strong 
evidence-based case to be made that educating girls may be the 
development investment with the highest return. Girls' education has a 
demonstrated positive effect on a broad range of priorities, including 
ending poverty and promoting economic growth; improving the health and 
survival rates of women and children; preventing the transmission of 
HIV/AIDS; protecting children from early marriage, forced labor, and 
sexual exploitation; and promoting gender equality and women's 
economic, social, and political participation.
    Multiple research studies have shown:


   An extra year of education beyond the average boosts girls' 
        eventual wages by 10-20 percent.\1\
---------------------------------------------------------------------------
    \1\ Psacharopoulos, George. 1994. ``Returns to Investment in 
Education: A Global Update.'' World Development 22 (9): 1325-43.

   Educated women are more likely to join the formal sector, which 
        broadens a country's tax base and increases its overall 
        productivity.\2\
---------------------------------------------------------------------------
    \2\ Malhotra, Anju, Caren Grown, and Rohini Pande. 2003. ``Impact 
of Investments in Female Education on Gender Inequality.'' Washington, 
D.C.: International Center for Research on Women.

   If the world closes the gender gap in workforce participation, 
        global GDP would grow by $28 trillion in 2025.\3\
---------------------------------------------------------------------------
    \3\ http://www.bloomberg.com/news/articles/2015-09-24/mckinsey-
says-gender-equality-would-boost-gdp-by-28-trillion

   When women gain four more years of education, fertility per woman 
        drops by roughly one birth.\4\
---------------------------------------------------------------------------
    \4\ Klasen, Stephan. 1999. ``Does Gender Inequality Reduce Growth 
and Development? Evidence from Cross-Country Regressions.'' Policy 
Research Report on Gender and Development Working Paper No. 7. 
Washington, D.C.: World Bank.

   When a girl in the developing world receives seven years of 
        education, she marries four years later and has 2.2 fewer 
        children.\5\
---------------------------------------------------------------------------
    \5\ UN Population Fund, State of World Population, 1990.

   In Africa, children of mothers who receive 5 years of primary 
        education are 40 percent more likely to live beyond age 
        five.\6\
---------------------------------------------------------------------------
    \6\ Summers, Lawrence H. 1994. ``Investing in All the People: 
Educating Women in Developing Countries.'' EDI Seminar Paper No. 45. 
Washington, D.C.: World Bank.

   Multi-country data show educated mothers are about 50 percent more 
        likely to immunize their children than uneducated mothers.\7\
---------------------------------------------------------------------------
    \7\ Gage, Anastasia, Elisabeth Sommerfelt, and Andrea Piani. 1997. 
``Household Structure and Childhood Immunization in Niger and 
Nigeria.'' Demography 34 (2):195-309.

   Women with post-primary education are five times more likely than 
        illiterate women to know the basic facts about HIV/AIDS, 
        according to a 32-country review of demographic and health 
        surveys.\8\
---------------------------------------------------------------------------
    \8\ andemoortele, J., and E. Delamonica. 2000. ``Education 
`Vaccine' against HIV/AIDS.'' Current Issues in Comparative Education 3 
(1).

   An Ivory Coast study found that educated girls were only half as 
        likely to experience female genital cutting.\9\
---------------------------------------------------------------------------
    \9\ World Health Organization. 1998. ``Female Genital Mutilation.'' 
Geneva: World Health Organization.

   A review of 113 studies indicates that school-based AIDS education 
        programs are effective in reducing early sexual activity and 
        high-risk behavior.\10\
---------------------------------------------------------------------------
    \10\ Kirby, D., et al. 1994. ``School-Based Programs to Reduce Risk 
Behaviors: A Review of Effectiveness.'' Public Health Reports 109 (3): 
339-61.


    Despite the wealth of data demonstrating that adolescent girls are 
a sound and smart investment, the barriers standing in the way of 
---------------------------------------------------------------------------
girls' education are varied and complex.


   Attending secondary schools, which are more widely dispersed than 
        primary schools, often requires girls to walk long distances. 
        Parents worry for their daughters' safety traveling to and from 
        school.

   Girls experience sexual harassment from teachers and students in 
        their classes.

   Domestic chores leave girls without time or energy to do homework 
        or make the long journey to school.

   Early and forced marriage typically forces girls to drop out of 
        school because they get pregnant or have more duties at home.

   Schools lack proper sanitary facilities for girls, which means that 
        girls miss a week each month when they menstruate.

   Parents often cannot afford school fees, or choose to pay only for 
        their sons to go to school.

   Communities don't value girls in the way they value boys, and don't 
        see girls as worthy of an education or any role for them 
        outside the home.


    In conflict-affected communities and refugee environments, the 
challenges to educating girls are exacerbated by the violence and 
displacement around them. Refugee and displaced children are five times 
less likely to attend school, and the situation is far worse for girls 
who are 2.5 times more likely than boys not to attend school in crisis 
situations.
    The United States recognizes the need for access to education for 
the most vulnerable children affected by conflict and crises--whether 
they are in their own communities, displaced, or in new and 
longstanding refugee populations--which is why both the State 
Department and USAID invest in girls' education in emergencies.
    While barriers vary by community and country, they all have the 
same effect: girls are held back from reaching their full potential, 
and consequently so are their communities and countries.
    To address the range of challenges facing adolescent girls, 
Secretary Kerry launched the U.S. Global Strategy to Empower Adolescent 
Girls in March of this year. Not only is this the first U.S. strategy 
to focus on this age group, the United States is the first country in 
the world to develop a strategy focused on the protection and 
advancement of adolescent girls.
    The strategy recognizes the need to match our investment in 
adolescent girls with the pivotal role they play in our development and 
foreign policy efforts. Its launch signifies our intent to take a 
strong leadership role in this area.
    In addition to the State Department, a number of government 
agencies are part of this strategy, including USAID, the Peace Corps, 
and the Millennium Challenge Corporation. The Strategy outlines five 
common objectives:


   enhancing girls access to quality education in safe environments;

   providing economic opportunities and incentives for girls and their 
        families;

   empowering girls with information, skills, services and support;

   mobilizing and educating communities to change harmful norms and 
        practices, such as early and forced marriage and female genital 
        mutilation/cutting;

   and strengthening policy and legal frameworks and accountability.


    The strategy also outlines the full range of challenges facing 
girls at this age and identifies education as the single most important 
tool to equip them to overcome these barriers and fully participate in 
their societies.
    We are proud to highlight the work we are doing in coordination 
with Let Girls Learn--a presidential initiative championed by the First 
Lady and a central part of implementing the strategy. Let Girls Learn 
is focused on making sure that adolescent girls can get a quality 
education that empowers them to reach their full potential.
    This initiative is unique in that it is holistic. We are working to 
address the range of challenges facing adolescent girls in a 
comprehensive way, including by tackling cultural biases that place 
little value on education for girls, as well as the inability of 
parents to pay school fees. And we are doing everything we can to 
include the relevant stakeholders--across theU.S. government and 
beyond--to address the challenges that hold back girls.
    I'd like to highlight one particular component of Let Girls Learn 
that my office is working on with the USAID, and that Susan will speak 
about as well. Through the Let Girls Learn Challenge Fund, we are 
undertaking a comprehensive effort to improve education outcomes for 
adolescent girls in two focus countries--Malawi and Tanzania--that 
President Obama announced last year. We selected these countries after 
a careful and extensive vetting process that took into consideration 
the countries' relative political stability, high number of girls out 
of school, high rates of early and forced marriage, and political will 
on the part of the government.
    What we ultimately hope to do is to develop a successful model to 
keep adolescent girls in school. The model could be used by the United 
States or other interested governments to scale up efforts elsewhere. 
We recently held a workshop on this initiative with civil society 
partners in Tanzania, and I was highly encouraged that representatives 
from the governments of the United Kingdom, Canada, Japan, South Korea, 
and Norway were in attendance.
    I am delighted that the President's Emergency Plan for AIDS Relief 
(PEPFAR) is a central partner in this effort. The PEPFAR's DREAMS 
partnership is investing $385 million in 10 African countries--
including Malawi and Tanzania--to reduce HIV infection in adolescents 
and young women. DREAMS will work far beyond the health sector, by 
focusing on things like lack of access to education for girls, as well 
as poverty and sexual violence.
    Research has shown that keeping girls in secondary school can have 
a large protective effect against the transmission of HIV. One study 
published in the Lancet found that one additional year of education for 
adolescents can reduce HIV acquisition before age 32 by one third. The 
protective effect of education is even stronger among young women--risk 
of HIV acquisition was cut nearly in half.
    We recognize that advancing girls' education requires taking a 
comprehensive approach--through diplomacy, programming, and 
partnerships. That's what it will take to make sure that girls around 
the world--like the ones I met in Kenya--are getting the education they 
need to succeed. As the sign said, these girls are not too young to 
change their nation. And it's not too late for us to support them in 
reaching their full potential.
    Thank you, and I look forward to your questions.


    Senator Rubio. Thank you for your service.
    Ms. Markham?

STATEMENT OF SUSAN MARKHAM, SENIOR COORDINATOR, GENDER EQUALITY 
    AND WOMEN'S EMPOWERMENT, U.S. AGENCY FOR INTERNATIONAL 
                 DEVELOPMENT, WASHINGTON, D.C.

    Ms. Markham. Good morning, Chairman Rubio, Senator Kaine, 
and distinguished members of the subcommittee. Thank you for 
the opportunity to testify before you today regarding the 
critical issue of girls' access to education around the world.
    It is an honor to be joined by my colleague, Ambassador 
Cathy Russell, from the State Department and by others who are 
working to Let Girls Learn.
    On a recent trip, the Chief Director for Basic and 
Secondary Education in Malawi shared with me a conversation 
that she had had with a prominent village leader. When the 
Chief Director asked how many children the village leader had, 
he responded, I have three kids and two girls. The phrasing of 
his response underscores how girls continue to be marginalized 
in many homes and societies. In some cases, the extent to which 
females are valued determines whether newborn girls are allowed 
to survive in places where female infanticide is practiced or 
whether a girl is registered at birth to receive the documents 
she needs to establish her legal identity, enroll in school, 
register a marriage, own land and property, and assert her 
rights to make health care decisions.
    Gender norms determine the way households allocate 
resources to sons and daughters by influencing family decisions 
about boys' or girls' education, where they work, where they 
eat, and how they spend their time. Girls are often expected to 
complete chores, collect water and firewood, care for the 
household, and watch over other children, while boys are often 
expected to go to school, become breadwinners, and represent 
the family in public gathers and forums.
    In many places, as a girl approaches puberty, her world 
shrinks as her mobility and opportunities decrease. As a girl 
grows older, the fight to get an education becomes even harder.
    Ambassador Russell shared with you the stark numbers that 
we hear far too often and the impact that the lack of education 
has on these girls. Going further, in many places where boys 
and girls do not have educational opportunities, they are in 
danger of being exploited, forced to work, conscripted as child 
soldiers, or become prey to violent extremism.
    Education is a crucial aspect of increasing girls' 
opportunities to participate fully in their societies and the 
first step is to change values and norms around women and 
girls. At USAID, we know from our decades of experience that 
education is central to unlocking human potential on a 
transformational scale. Yet, societies do not fully benefit 
from the contributions of women and girls due to their lack of 
access to education.
    I had the opportunity to visit Tanzania last month, and I 
met with a group of girls in their early teens who were still 
in school. When I asked them what they wanted to be, I was 
inspired by these young women who expressed their desires to 
become chemists, researchers, and pilots. When I followed up 
with one who said she wanted to be a pilot, I asked her if she 
had ever been in an airplane. She had not. But her education 
opened up her world and showed her what was possible and what 
could be within her grasp.
    In every region in the world, women are under-represented 
in the fields of science, technology, engineering, and 
mathematics, limiting countries' abilities to harness their 
talent and skills and address development challenges. Countries 
that invest in girls' education have lower maternal and infant 
death rates, lower rates of HIV/AIDS, and better child 
nutrition.
    Simply put, when women are educated, they are a powerful 
force for change. Women are more likely to reinvest their 
earnings in their families to improve education, nutrition, and 
health, helping to break the cycle of poverty. When they play 
an active role in civil society and politics, governments are 
more responsive, transparent, and democratic. When women are 
engaged at the negotiating table, peace agreements are more 
durable. That is why contributions to peace and security 
through education, science, and technology are prerequisites 
for sustainable development, allowing economies to grow and 
societies to flourish.
    I have also seen this firsthand in Yemen when I was working 
with a group of women around the peace and reconciliation 
process. These women were not in the official national 
dialogue. They were not party officials. But we asked them for 
their ideas. What did the Yemen they envisioned look like in 10 
years? What role did they want to play? And what would they 
find impactful? Their answer? Literacy programs. Women wanted 
to be able to read the paper, communicate with each other, and 
pass those fundamental skills on to their daughters.
    USAID recognizes the transformational potential of educated 
women and girls in Yemen, Tanzania, and elsewhere. Through our 
education strategy, we focused on primary grade reading, 
education in conflict and crisis, and workforce development and 
higher education. And we continually work to increase gender 
integration and attention across the approximately $1 billion 
of annual education investment.
    USAID envisions a world where females and males are equally 
able to access quality education and health care, accumulate 
and control their own economic assets and resources, exercise 
their own voice, and live free from intimidation, harassment, 
and discrimination. And we think education is key to this.
    I look forward to answering any questions that you may 
have.
    [Ms. Markham's prepared statement follows:]


                  Prepared Statement of Susan Markham

    Good afternoon, Chairman Rubio, Ranking Member Boxer and 
distinguished Members of the Subcommittee. Thank you for the 
opportunity to testify before you today regarding the critical issue of 
girls' access to education around the world.
    USAID is grateful for Congress'--and particularly this 
Committee's--longstanding bipartisan support for women's empowerment 
and gender equality and helping all children, everywhere, get the 
education they deserve. Congress has been a key driver in both 
improving education around the world, including addressing barriers to 
girls' education such as gender-based violence in the context of early 
and forced marriage.
    It is an honor to be joined by my colleague, Ambassador Cathy 
Russell, from the State Department and by others working to improve 
access to education for all girls as a cornerstone investment that can 
truly unlock human potential on a transformational scale.
    On a recent trip to Malawi, the Chief Director for Basic and 
Secondary Education shared with me a conversation she had with a 
prominent village leader. When asked how many children the village 
leader had, he responded, ``I have three kids and two girls.'' This 
response underscores how girls continue to be marginalized in many 
homes and societies. Such marginalization is problematic, because the 
extent to which females are valued determines whether newborn girls are 
allowed to survive in places where female infanticide is practiced, or 
whether girls are registered at birth to receive documents necessary to 
establish legal identity, enroll in school, register a marriage, own 
land, and make health care decisions, access income opportunities, and 
assert democratic rights.
    Gender norms often determine the way households allocate resources 
to sons and daughters, influence family decisions about education, 
where they work, what they eat, and how they spend their time. While 
girls are expected to complete chores, collect water and firewood, and 
watch over other children, boys are expected to attend school, become 
breadwinners, and represent the family in public gatherings and forums.
    In many places, as girls approach puberty, their world shrinks as 
mobility and opportunities decrease. As a girl grows older the fight to 
get an education becomes even harder. She risks long, unsafe walks to 
school. She may be forced to marry, as young as eleven or twelve years 
old, and her family must be willing to pay school fees instead of 
receiving a dowry. In times of insecurity due to poverty, drought, 
conflict and instability, the pressure for girls to marry becomes even 
greater due to the strain on family resources. For these reasons, and 
many more, an estimated 100 million girls will drop out before 
completing primary school.
    To change this dynamic, we must focus on promoting gender equality 
and women's empowerment worldwide, while also engaging men and boys. 
The United States has put gender equality and the advancement of women 
and girls at the forefront of the three pillars of our foreign policy--
diplomacy, development, and defense. This is embodied in President 
Obama's National Security Strategy, the Presidential Policy Directive 
on Global Development, and the 2010 and 2015 U.S. Quadrennial Diplomacy 
and Development Reviews. But more must be done. Women's empowerment is 
critical to USAID's core mission of ending extreme poverty and 
promoting resilient, democratic societies while addressing pressing 
health and education challenges.
                statement of the problem and statistics
    Globally, 62 million girls under 18 years old are not in school. 
250 million girls live in poverty. One in three girls in the developing 
world is married by the time she is 18, and one in nine is married by 
the age of 15. Early and unintended pregnancy can be both the cause and 
a consequence of dropping out of school. In 2015, in 56 USAID-assisted 
countries, approximately 22 million adolescent girls ages 15 to 19 had 
begun childbearing and, of these, 4.3 million had had a second or third 
child. Millions more live in conflict settings that increase the risks 
of gender-based violence. Adolescent girls and young women are 
disproportionately affected by HIV/AIDS in sub-Saharan Africa, where 
seven in ten new infections in adolescents aged 15-19 are among girls.
    Even so, there is reason for optimism. While adolescence is a time 
of great vulnerability for girls, it is also an ideal point to leverage 
development efforts. It is an opportunity to disrupt poverty from 
becoming a permanent condition that is passed from one generation to 
the next. And a pivotal factor for an adolescent girl during this time 
of vulnerability is whether she stays in school.
    Education is a crucial aspect of increasing girls' opportunities to 
participate fully in their societies. It is the first step in changing 
values and norms around women and girls. USAID knows from decades of 
experience that education is central to unlocking human potential on a 
transformational scale. Yet, societies do not fully benefit from the 
contributions of women and girls due to their lack of access to 
education. In every region in the world, women are underrepresented in 
the fields of science, technology, engineering, and mathematics, 
limiting countries' abilities to harness their talent and skills and 
address development challenges.
    Based on data from 105 countries, researchers concluded that 
investments in universal primary and secondary education played a 
``decisive role'' in bringing countries out of poverty and reducing 
fertility rates. Countries that invest in girls' education have lower 
maternal and infant deaths, lower rates of HIV/AIDS, and better child 
nutrition. Among adolescents, greater educational attainment is 
associated with delayed sexual initiation and increased likelihood of 
contraceptive use. It is estimated that almost 60 percent fewer girls 
would become pregnant under the age of 17 years in sub-Saharan Africa 
and South and West Asia if they all had a secondary education. Girls 
with secondary schooling are up to six times less likely to marry as 
children compared to girls who have little or no education.
    And in many places, without a quality education, young people are 
in danger of being exploited, forced to work, conscripted as child 
soldiers, or become prey to violent extremism. According to the United 
Nations Office on Drugs and Crime, women and girls together account for 
about 70 percent of trafficking victims, with girls representing two 
out of every three children trafficked. Whether girls are trafficked 
into forced labor, domestic servitude, or sex slavery, trafficking 
disrupts a girl's ability to go to school, and puts her at great risk 
of gender-based violence.
    Educated girls can have a positive impact on the next generation. 
Researchers estimate that over 50 percent of the reduction in child 
deaths between 1970 and 2009 could be attributed to increased 
educational attainment in women of reproductive age. Each additional 
year of a mother's education increases the likelihood that she will use 
prenatal care. Children of educated mothers are more likely than those 
of uneducated mothers to have higher birth weights, are less likely to 
die in infancy, and more likely to be immunized. And the benefits of 
education to girls go beyond health and nutrition. The proof: an extra 
year of secondary schooling can increase girls' future earnings by 10-
20 percent. And if ten percent more girls attend school, a country's 
GDP increases by an average of three percent.
    Simply put, when women are educated, they are a powerful force for 
change. They have the tools to better participate in the formal economy 
and earn an income--and are poised to make a tremendous difference in 
all areas of their life. Women are more likely to reinvest their 
earnings back into their families to improve education, nutrition, and 
health, helping to break the cycle of poverty.
                            usaid's approach
Education Strategy
    USAID's current education strategy focuses on the following goals: 
primary grade reading; education in crisis or conflict; and workforce 
development and higher education. The Agency continually works to 
increase gender integration and attention across the approximate $1 
billion annual education investment. Through these efforts, USAID's 
education programs continue to reach girls, including adolescent girls, 
in programs that provide learning opportunities and prepare girls with 
the skills they need to succeed.
    From 2011 to 2015, USAID reached nearly 38 million individual 
primary school students--roughly equal numbers of girls and boys--with 
reading programs to improve instruction and learning outcomes. The 
Agency improved or established quality education in safe learning 
environments for nearly 12 million children and youth in conflict and 
crisis environments, of whom an estimated 47 percent were girls and 2.4 
million of whom were previously out-of-school. Our workforce 
development programs supported approximately 300,000 girls to gain new 
or better employment. In Somalia, girls and young women represent 79 
percent of those whom USAID helped gain access to education; in 
Afghanistan, where 40 percent of primary school students are female, 
girls and young women represent 58 percent of those gaining access to 
education through our programs. USAID places an emphasis on girls in 
our education programs because of the development dividends of 
educating girls and because they are more vulnerable, at risk of 
dropping out at higher rates, and often face more challenges than their 
male counterparts to stay in school.
Whole-of-Girl Strategy
    USAID's ``whole-of-girl'' approach addresses the interconnected 
events that resonate throughout a girl's life from birth to adulthood. 
For instance, the recently released Implementation Plan of the U.S. 
Global Strategy to Empower Adolescent Girls reflects USAID's engagement 
with adolescent girls, aged 10 to 19, in this holistic manner. This 
strategy provides a comprehensive framework for the Agency to address 
the diversity of opportunities, possibilities, and challenges that 
adolescent girls encounter. The USAID Implementation Plan of this 
strategy does this by furthering efforts to mainstream and integrate 
gender throughout programs and interventions; by documenting progress 
through data, integrating lessons learned, and promoting best 
practices; and by expanding collaborations and partnerships. 
Additionally, new programs will be implemented in sectors where the 
specific needs of adolescent girls and the barriers they face are well 
understood, such as in child, early, and forced marriage.
    Additionally, in March 2015, the President and First Lady launched 
Let Girls Learn, which employs this holistic approach to change the 
perception of girls' value at the individual, community and 
institutional levels; fosters an enabling environment for adolescent 
girls' education; and engages and equips girls to make life decisions 
and important contributions to society. One of USAID's key 
contributions to the Let Girls Learn initiative includes the Let Girls 
Learn Challenge Fund to help adolescent girls thrive by utilizing a 
unique mechanism for USAID and public organizations, private sector 
companies, governments, and international donor organizations to co-
create, co-fund, pilot, and implement innovative programs to ensure 
that adolescent girls enroll and succeed in school, with an initial 
focus on Malawi and Tanzania. Additional USAID Let Girls Learn 
commitments include a five-year, $180 million partnership with the 
United Kingdom's Department for International Development (DFID) which 
includes accelerated and alternative learning programs for out-of-
school girls in the Democratic Republic of the Congo and addresses 
sexual and gender based violence issues that prevent girls from 
attending and completing primary education; $100 million in Jordan to 
build 25 new schools, 70 percent of which will be schools for girls, to 
alleviate overcrowding due to the influx of Syrian refugees; and a $70 
million commitment to advance girls' education through new and ongoing 
USAID programs benefiting over 200,000 adolescent girls in Pakistan.
    Through Let Girls Learn and decades of work to lift up adolescent 
girls, USAID programs work across sectors to ensure that all girls have 
access to a quality education by addressing the root causes that keep 
girls out of school and limit their ability to make life decisions. 
Within these programs, USAID works to engage women and girls as well as 
men and boys as advocates to promote gender equality and equal 
opportunity. The Agency's programs address the differentiated needs of 
girls in specific stages of adolescence, recognizing that the 
challenges young adolescents encounter are distinct from those 
experienced by older adolescents approaching adulthood.
    In part to keep girls in school, USAID focuses on addressing a wide 
range of vulnerabilities for adolescent girls, including early 
pregnancy, malnutrition, menstrual hygiene, gender-based violence, HIV, 
and economic barriers, including school fees and the cost of materials 
to attend school. To address these vulnerabilities, USAID implements 
programs that promote positive gender norms and behaviors, equitable 
access to resources, and prevention and response to gender-based 
violence, including child, early, and forced marriage.
    In the Democratic Republic of Congo, USAID's basic education 
programming has empowered 118,963 adolescent girls through 
scholarships, tutoring and mentoring, training in preventing gender-
based violence and improving school environments. This program has 
improved adolescent girls' transition from primary to lower secondary 
education. In addition, through the program's mentoring activities, 
girls are empowered to play leadership roles in their schools and 
communities.
    In Bangladesh, the our girls' education program works with 
secondary schools to incentivize students, teachers, school 
administration and parents to ensure girls feel safe and have a place 
where they can thrive. Currently, the campaign reaches more than 
100,000 adolescent students of which 60 percent are girls--and has 
brought 265 married and divorced girls back to school, led to a 10 
percent decrease in child marriage, and achieved a 30 percent decrease 
in girls' dropout rates compared to 2014 rates. As a result, the 
campaign model will be scaled nationwide by the Government of 
Bangladesh.
    The inception of USAID's ``whole-of-girl'' approach begins at 
birth, a critical period of time where USAID has done important work 
towards registering all children, particularly girls, in developing 
countries for decades. Birth registration is essential for accessing 
critical services and protecting rights such as proving one's identity, 
owning property, enrolling in educational programs, gaining employment, 
opening a bank account, conferring citizenship on one's children, and 
voting. USAID has spearheaded registration as part of work to provide 
improved access to services for orphans and vulnerable children, 
strengthen governments' capacities to provide reliable registry 
services, and assist in family reunification efforts. For example, the 
PEPFAR-funded Nilinde Orphans and Vulnerable Children program in Kenya 
works to improve inheritance, birth certificate, and guardianship 
systems to further protect vulnerable children and their families and 
to provide access to services such as education and health services. 
Birth registration also results in improved population data that will 
be a valuable tool for designing evidence-driven programs and ensuring 
that adolescent girls have equal access to services and rights.
    Following the enactment of the Girls Count Act in 2014, USAID is 
centralizing documentation of the Agency's efforts to improve civil 
registries and enable access to birth certificates. We are also working 
to bolster these efforts through the U.S. Global Strategy to Empower 
Adolescent Girls. Additional guidance, currently being developed as 
part of larger Agency discussions on monitoring and evaluation, will 
provide further direction to the collection of appropriate and 
practical data for beneficiary age, marital status, location, and 
school enrollment status.
Conflict-affected Environments
    The number of displaced populations due to crisis and conflict 
around the world is on the rise, and USAID and the Department of State 
are working together to address the unique needs and barriers to 
education for girls impacted by crisis, conflict, and migration, 
including a physical space to learn. For example, the influx of Syrian 
refugees into Jordan has had a profound impact on the education sector, 
particularly public schools. To help meet this challenge, USAID leads 
an effort in Jordan in partnership with other donors to make available 
the necessary funds to finance the Ministry of Education's plan to 
place an additional 50,000 Syrian children in formal education so that 
all refugees have access to education in the 2016-2017 school year. 
This raises the total number of Syrian refugees enrolled in formal 
schools to 193,000 and includes the provision of an additional 102 
schools educating two shifts of students per day, raising the total 
double-shift schools to 200, as a temporary solution to the educational 
needs of Syrians in Jordan. Donors also intend to scale up support of 
the government's ``catch up program,'' which aims to enroll an 
additional 25,000 previously ineligible students inside formal schools 
to give them the opportunity to catch up to their peers in their age 
group, be tested, and when ready join their age cohort.
    To continue support for girl refugees, this year USAID pledged a 
$10 million contribution to Education Cannot Wait, a fund designed to 
increase safe and quality education so that all children have the 
opportunity to learn even amid protracted emergency situations.
                             looking ahead
    USAID continues to refine tools and interventions to effectively 
address the unique needs of girls in order to ensure they reach their 
full potential. The Agency remains resolutely focused on implementing 
the three objectives of the USAID Gender Equality and Female 
Empowerment Policy: (1) Reduce Gender Disparities; (2) Reduce Gender-
Based Violence; and (3) Increase Capacity of Women and Girls to Realize 
their Rights and Influence Decision Making.
    Already, USAID is increasing our efforts to coordinate across 
sectors, including health, food security, conflict and crisis response, 
economic growth, and more, to address the interlocking barriers that 
disempower and disadvantage adolescent girls. Sustainable development 
outcomes depend on engaged collaboration with women and girls 
themselves, soliciting their knowledge and solutions while deepening 
their capacity for decision-making and driving social transformation.
    USAID envisions a world where females and males are equally able to 
access quality education and health care; accumulate and control their 
own economic assets and resources; exercise their own voice; and live 
free from intimidation, harassment, and discrimination--valued as 
leaders, innovators, peace-builders, and breadwinners in their 
communities and societies.
    I appreciate the opportunity to share with you what USAID is doing 
to address barriers to girls' education and look forward to hearing 
your counsel. I welcome any questions you may have.


    Senator Rubio. Thank you and thank you for your service and 
all the work you are doing as well.
    I am going to begin by deferring to Senator Gardner.
    Senator Gardner. Thank you, Mr. Chairman, and thank you to 
the witnesses for being here today. I appreciate your time and 
testimony.
    I had the opportunity just a couple of months ago to travel 
to Israel and see some of the great work USAID is doing in 
education. I traveled to and visited the Hand-in-Hand School, 
along with Senators Cardin, Markey, and some others that joined 
us, as they bring together Jews and Arabs in the same school to 
receive education and opportunity to work together, to grow up 
together, and to befriend each other.
    The recent opportunity I had to visit Myanmar, Burma, also 
opened my eyes to what has happened around the globe, 
particularly in Southeast Asia. I had an opportunity to visit 
with Administrator Smith about her recent visit to Burma as 
well.
    And so to you, Ambassador, and to you, Coordinator Markham, 
I would ask this. During that visit to Burma, we talked a lot 
about education reform. We talked with Aung Sang Suu Kyi about 
the work that she is now doing leading Burma in the transition 
to what I hope is a full-fledged democracy. Education reform, 
clearly one of their most important policy pursuits, but also 
one of their greatest challenges because after 50 years of 
harsh military rule, their education system in many respects 
has been decimated. And so the new civilian government has a 
tremendous amount of work to do to make this transition 
successful.
    And so to the two of you, what programs does the State 
Department have and USAID currently have in the sphere of 
Burma? What could be useful for them? What can we help them 
with? And how can we help that country rebuild its educational 
system and assure better access for women and girls to 
educational opportunities? Either one or both.
    Ambassador Russell. Senator, I will start and then I will 
certainly defer to Susan who probably has more information on 
the programming.
    But I did travel to Burma fairly recently too, and I had 
the same reaction. It was interesting. I went to a girls' 
school, and the girls were telling me that in some of their 
classes, they would have to recite things and if they did not 
recite it exactly right, they would get tossed out of the 
class. And if the teacher did not get it right and the girls 
challenged them, they would get in trouble for that. So I came 
back with the same notion that we really need to do a more 
thoughtful look at what some of these curricula look like and 
how we can try to develop them in a way that encourages people 
to question and to really be analytical in their work.
    From our perspective at the State Department, we have done 
a fair bit of work in Burma on supporting women, small programs 
to try to get women either involved in the political process, 
involved in the peace process, and some work on economic 
empowerment. As I said in my statement, we see all of those as 
really integrally related to each other. And so we are 
continuing to look for opportunities to work in Burma. I feel 
like there is tremendous opportunity there.
    And I will defer to Susan on some of the other programming 
questions.
    Ms. Markham. Thank you so much for that.
    USAID works in partnership in Burma with various local 
education and government partners to increase recognition of 
community and refugee-based education as well. The programs 
that I think are kind of the key aspects of the work that we do 
in Burma include non-formal education opportunities for 
children in communities that have been affected by conflict in 
southeast Burma and those displaced Burmese in Thailand. We 
also work with ethnic community-based organization partners to 
make sure schools in conflict-affected areas continue to have 
students attend. We have also supported education in refugee 
camps and migrant learning centers that use the Burmese 
curriculum for primary level classes for displaced Burmese 
children in Thailand who seek to return to Burma.
    Senator Gardner. Thank you.
    Throughout our visit, we visited in Singapore and Taiwan 
and Myanmar, and we talked about areas of that part of the 
world that are improving in terms of opportunities for women 
and opportunities for more freedom for their people.
    Where do you look out, though, in Southeast Asia, in 
particular? As chair of the East Asia Subcommittee, I would be 
very interested in this answer. Where do you look at in East 
Asia and Southeast Asia and see things getting better for women 
in education opportunities? Where do you see things getting 
worse or where are you concerned about the most?
    Ms. Markham. There are a variety of different barriers, I 
think, across the countries. As you know, within that region, 
the countries can be so different, even within a single 
country.
    In Cambodia, I was both in rural areas and in the capital. 
In the rural areas, so many men had gone away to seek work in 
other parts of the country or in other countries. And so women 
were remaining there to do a lot of the agricultural work that 
needed to be done. For them, it was a very fundamental question 
about whether the schools were good enough that they would take 
the time and money to send their daughters there when they 
really needed them helping with rice or other agricultural 
duties. In the more urban areas, it was more about the threat 
of violence, HIV, and other health issues that were impacting 
girls' ability to go to school.
    So I think that it is hard to kind of give a broad picture. 
Certainly in Indonesia, we are worried about issues of child 
marriage and FGMC and other issues that impact a girl's 
opportunity to go to school. In places like Bangladesh, we work 
to prevent child marriage in order to keep girls in school. So 
it is really varied across countries.
    I do think overall with hearings like this and with the 
Office of the First Lady continuing to talk about the 
importance of girls' education, it certainly is an easier 
conversation. We no longer have to make the ``why'' argument 
but really the ``how,'' how can we make this happen and keep 
girls in school.
    Senator Gardner. Very good.
    Thank you, Mr. Chairman. Thank you to the witnesses.
    Senator Rubio. Thank you very much.
    Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair.
    And to the witnesses, thanks for your testimony.
    By 2020, the World Bank Group expects to invest about $2.5 
billion in education projects targeting adolescent girls from 
age 12 to 17. About 75 percent of these investments are 
expected to be from the International Development Association's 
fund, which is the Bank Group's fund for the poorest countries, 
largely in sub-Saharan Africa and South Asia, which have the 
highest numbers of out-of-school girls.
    Could you talk a little bit about how State or the U.S. 
family of agencies working on this will work to help the World 
Bank fund guide the direction of those sizable investments so 
they can help maximize the effect that they will have?
    Ambassador Russell. Senator, thank you for that.
    And we were very excited to see the World Bank's 
announcement about that.
    We are coordinating with them. Our teams have been working 
together to try to think about how best to do this work. The 
way they typically do their funding is that these proposals 
generate up from the countries. And so I think there was an 
event at the World Bank where it was India, I think Ghana, and 
Rwanda came forward and they sort of made it clear what they 
were planning to do. We are working with the bank to try to 
think about how best to do this in these countries. And I think 
over the 5-year period, assuming that those investments are 
done wisely, which I expect that they will be because I think 
the bank is very thoughtful, we hope to try to do our work in a 
way that is reinforcing of that work.
    I mean, I always think the United States--you know, we do 
so much important work around the world. We cannot be 
everywhere doing everything. And so one of the major tasks that 
I have undertaken is to try to make sure that we are 
coordinated with the other players in the field, and that 
includes the U.N., the World Bank, so the multilateral world, 
and also our bilateral partners. So when I mentioned what we 
are doing in Malawi and Tanzania, we are now in this very 
substantial process of trying to identify who else is there, 
what they are doing, what NGOs are there so that we can try to 
do our work in a more coordinated way. And as I said in my 
remarks, that is not typically the way the U.S. Government 
approaches these issues because gender is a fairly unusual 
issue, but I think on this issue it makes the most sense 
because we really have such a huge task ahead of us. And if we 
can all do our work in a more efficient way reinforcing each 
other's work, I think it is just going to be much more 
productive.
    Senator Kaine. Let me ask you about education and refugees. 
The chairman talked about all the normal challenges of the 
education of girls, and then we have these situations in the 
world now where people are displaced from their homes, which 
makes the provision of educational programs even more 
difficult. I visited Syrian refugees in Turkey, Lebanon, and 
Jordan. 2-plus million in Turkey, some in refugee camps, some 
in communities near the border, Ghazi and Tep and others. In 
Jordan, heavily in camps but some living in the community. 
Lebanon has not really done much on the camp side. So there are 
more Syrian kids in the Lebanese school systems than there are 
Lebanese kids because of the 1-plus million numbers.
    What are we doing to focus upon the needs of especially, 
just as an important and powerful example, Syrian refugee kids 
and making sure that they are receiving education, especially 
young girls?
    Ms. Markham. Thank you so much for that important and 
timely question.
    Just last month at the World Humanitarian Summit, USAID 
pledged $10 million as part of a $20 million package from the 
U.S. Government to the Education Cannot Wait fund because I 
think it is an important issue. Oftentimes when we think about 
humanitarian assistance and providing aid to refugees, we think 
about the immediate needs of shelter and food and safety. But 
now longer and longer, refugees are not getting back to their 
homes, and they are either in camps or urban areas. And so this 
program is going to move up the education programming so that 
we are providing it sooner to those who have been displaced 
from their homes.
    But I should say a majority of the Syrian refugees are not 
in camps. They are in urban areas in Lebanon and Jordan, and we 
have been very thankful for the good government partners there 
where USAID has been working with the governments. Specifically 
in Jordan, we have been working to build new schools as quickly 
as we can so that they can run multiple shifts so that boys and 
girls can continue their education as they move forward.
    Senator Kaine. That is excellent.
    Ambassador Russell. Can I make one point on that?
    Senator Kaine. Yes. Please, Ambassador Russell.
    Ambassador Russell. I would say I think the international 
system is straining under the burden of these refugees and 
trying to figure out how to address these challenges more 
effectively. Obviously, the resources are critical to that.
    But what we are seeing, in particular when you look at the 
girls, is we are seeing a higher rate of early marriage among 
girls. And it is families who are looking around and they see 
their girls are in danger, so they decide it is easier and 
better and safer for the girls to get married than it is to be 
out in the community and vulnerable. We are trying to do some 
programming on that front.
    We are also looking at economic opportunities so that 
women--a lot of times these are women-headed households. They 
do not have a way to support their families. So we are taking a 
look at the range of issue.
    But I would just sort of echo your point that all of the 
challenges that you see in a regular circumstance are magnified 
and exacerbated by conflict. And I think the whole world is 
struggling to try to do a better job to address those problems.
    Senator Kaine. One last question. I am a proud uncle. My 
niece was a Peace Corps volunteer in Cameroon and worked on 
girls' education issues there. She came back a couple of years 
ago. But I know the Peace Corps has really embraced the Let 
Girls Learn initiative. I do not have a Peace Corps witness 
here, but I know you guys work closely with the Peace Corps. I 
wonder if you just might offer some thoughts about what the 
Peace Corps is doing to make sure that our volunteers in 
communities around the world are really advancing this 
important goal.
    Ambassador Russell. One thing I would say is that the Peace 
Corps is an important partner with us in this effort overall, 
and they were a part of the strategy. We are very closely 
linked with them and with MCC, as a matter of fact. We are 
really trying to organize ourselves very effectively.
    But the Peace Corps does bring a really unique perspective 
to this which is that, as you say, they have these volunteers 
who are living in these communities and understand what the 
communities need. And that to us is very valuable. You know, we 
sit in Washington, we try to design programs, try to come up 
with things. But to have people who are actually out there and 
understand exactly what is going on, as USAID certainly does, 
but I think Peace Corps in a different way really brings a 
valuable perspective to this. And so we are very much grateful 
to them. The head of the Peace Corps is devoted to getting more 
girls into education settings, and she personally is very 
involved with us in trying to do this in a more organized way.
    Senator Kaine. Excellent.
    Thank you very much, Mr. Chair.
    Senator Rubio. Thank you.
    Let me just begin with a couple of quick questions, and 
then I want to get into the guts of everything else we have 
talked about.
    I am curious. As we go abroad and are beyond simply in all 
of our contracting that we do overseas, everything from the 
people we hire to work at our embassies and consulates--I am 
talking about nationals--all the way to projects of any scope 
that we are doing in other countries that are being funded 
through USAID, do we have a program that actively seeks to hire 
firms and companies that are run by or owned by women in these 
countries as we try to empower an entrepreneurial class in some 
of these places?
    In essence, let us say we have any sort of project in a 
foreign country and we are leveraging U.S. funds to do it, is 
there any program or incentive system in place to try to 
affirmatively hire, if possible, women who run businesses in 
some key countries around the world?
    Ms. Markham. Senator, I am not aware that we have that sort 
of program on the procurement office side. I do know that there 
are USAID efforts to empower more local organizations, and 
quite frankly a lot of the civil society organizations that we 
work with provide opportunities for women to step forward and 
show a lot of leadership. So when we look to empower local 
organizations and invest our development funds in them, they 
are oftentimes through women-owned or women-directed 
organizations. But I do not know of any specific procurement 
program.
    Senator Rubio. It was just a suggestion. But my point--and 
maybe it is something we need to work on. But my point on that 
front is the next step after the education is to empower women 
to have a place in both the business and civic life of a 
country, and if we are spending millions of dollars in a 
country to do everything from build roads and bridges to build 
schools, to run systems and there are in fact companies that 
are either run or started by women who may perhaps have 
benefited from the education that we have funded, I think that 
would be the next logical step in leveraging our aid and 
empowering and getting experience and work for companies. It is 
just a thought, and maybe that is something we need to develop 
on our end.
    Ms. Markham. If I could just follow up on that. I should 
say that one of the main points or one of the main strategies 
of the USAID education strategy is workforce development. So we 
are working with companies that operate in the countries where 
USAID works to create a pipeline so that education is not the 
end all. We are creating a pipeline so that they can join the 
formal workforces that are needed.
    And one of the largest programs USAID has ever created is 
called the Promote Program in Afghanistan, which is 
specifically focused on girls who are graduating from secondary 
education and then pairing them with civil society, government, 
or private firms so that they can gain the skills to enter the 
formal workforce. It is exactly what you are saying. We have 
made this investment. The girls that we invested in during 
primary school are now in secondary school and looking ahead, 
and we are trying to help build a path for them.
    Senator Rubio. And I know every country possesses different 
challenges. My view is we are doing the education. We are doing 
the workforce empowerment. I think the next logical step at 
some point is to help leverage our aid to create an 
entrepreneurial class of women business owners. If you want to 
talk about ultimately completing the cycle, maybe that is 
something we should talk about further.
    I am also interested in what we are doing, if anything--and 
I am just kind of taking you to a different part of the world 
for a moment--in Central and Latin America and particularly the 
migrant crisis that we now see emanating out of Honduras, 
Guatemala, El Salvador, the Northern Triangle. And as we have 
all read the horrific tales of what is happening to women in 
particular, young women in particular, who are being trafficked 
in the hands of these horrifying cartels and so forth, what 
efforts do we have, number one, to prevent the migration, and 
second, to provide services, empowerment services, if in fact 
they are returned to their country of origin?
    I visited one site in Honduras where I saw some work being 
done, and World Vision was involved in that as well. And it was 
going to lead into the next question that I have. It was 
providing what I would call character education. And that is 
important, but education has to be the right education, the 
curriculum, what we are teaching. You know, given the limited 
resources we have, access is important, but programming on the 
quality of that education is important. So how are we balancing 
that between--I went from the migrant thing to this because it 
is the experience I just came from. How are we balancing 
programming and access? They are both important, but the access 
should lead to quality programming not just, you know, we got 
you in a classroom, we are going to teach you a few basic 
things?
    Ambassador Russell. Well, let me say first, if I can, about 
that region, which is an interesting region for women. In some 
ways you see women leadership, political leadership, and that 
is pretty impressive. And the girls' education numbers--and 
this is a broad----
    Senator Rubio. I am sorry. You see women leadership in 
South America. You do not see it nearly as often in Central.
    Ambassador Russell. Yes, absolutely. In Latin America, yes. 
I am sorry.
    Senator Rubio. Often you have heads of state, but somehow 
it stops when you get into Central America.
    Ambassador Russell. Yes.
    And we see the girls' education numbers are pretty good 
across the region. Again in Central America, we see in some 
indigenous populations that there are problems of early 
marriage in these populations, and so we are taking a closer 
look at that.
    But where you have very serious problems is we have very 
serious problems of gender-based violence in that region, and 
we need more economic opportunities for women. And those two 
things I think are driving our thinking at least on the State 
Department side about how we should think about women's issues 
as we move forward with addressing the issues in the three 
countries. I know that there have been lots of conversations 
with Congress about the funding for that, and we are taking a 
look at how we can do more effective and better programming on 
that issue.
    On your second point about--I cannot remember what it was. 
What was it?
    Ms. Markham. Quality.
    Ambassador Russell. Quality. Oh, yes. I am sorry. Of 
course, quality.
    I 100 percent agree with that. It does not do any good to 
just put these kids into a school. They need to be getting a 
quality education.
    Having said that, that is very challenging in many places. 
I was in Malawi not too long ago, and there were literally 60 
kids sitting under a tree with nothing, no piece of paper, 
nothing, and just listening to that teacher for an hour talk 
about things. And I think even the best teacher is going to 
struggle with that. And so across the board, we really have to 
think about how we can help train teachers, support teachers, 
and make it clear to countries that that is an important part 
of what they are supposed to be doing.
    Senator Rubio. So another thing that is interesting--I 
mean, one of the things that I think begins to change the 
dynamic is when you can get more women into senior government 
leadership positions.
    So here is something, and I know Senator Kaine noticed this 
as well. When I read the bios of heads of state and foreign 
ministers, it almost invariably includes at some point study in 
the United States, which in many of these countries is largely 
reserved to those who come from wealthy families.
    What efforts have we undertaken or are we undertaking to 
close the cycle so if a young girl has been exposed anywhere in 
the world to education in primary and secondary education, they 
have now finished? Do we have efforts to help more young women 
around the world travel to the U.S. and attend colleges or 
universities here that will, in fact, position them to return 
and play a role in some of the senior leadership positions in 
government around the world or in business for that matter?
    Ambassador Russell. I am sure you have been briefed on some 
of the work that our ECA Bureau does. We bring millions of 
people to the United States over periods of time. And we have 
had many conversations with them thinking about--it is not 
enough just to make sure that there is some sort of gender 
parity in their work, but also thinking about things like 
sometimes they will bring a group of women entrepreneurs, for 
example.
    I met with a group that came from the Middle East, and the 
women said, you know, it is great that we come as a group of 
women and we can talk amongst ourselves, learn from each other, 
learn from American business leaders and things. But it is also 
important for us to be in groups with men so that the men in 
our region see us as equals. And so we are taking a careful 
look at that.
    These issues are always so complicated and it does, in a 
way, depend on sort of the mores in a country. But there is no 
question that from our perspective, the United States stands 
for something. We have values here. We have principles. We are 
trying to share those with others, not trying to force others 
to do things as we do them, but to learn from what we have done 
in the U.S.
    I think the power of the United States to bring people here 
to show them how we live, to show them how women and girls have 
opportunities here, I am always very careful to be humble about 
that and say we still have challenges in the United States. It 
is not like we have solved every problem. We have problems with 
gender-based violence and other issues. We do not pretend to 
know everything, but we have a lot of experience that we would 
be happy to show. And I think both by example and by sort of 
spending time and teaching them, we go a long way.
    Now, I will say one of the things I hear about constantly 
is the United States only has 20 percent women in Congress. I 
do not know if you hear that when you travel, but they say to 
me what is going on in the U.S. Why do you not have more women?
    Senator Rubio. Well, we were just talking about that 
ourselves.
    Ambassador Russell. It is complicated. Right? I mean, women 
have opportunities here, but there are reasons--and everyone is 
trying to understand why do more women not run. Is it that they 
do not like to raise money? Is it that they take failure 
personally? Who knows? But there is a lot of research being 
done on that front. I think, again, the United States really 
has a lot of ability to share our experience.
    Senator Rubio. Obviously, it is deeper issue about the 
representation in Congress. I will add this as the father of a 
16- and 14-year-old and watching my daughters and their 
contemporaries grow up and talk and express themselves, those 
numbers are going to change. They are coming.
    Ambassador Russell. I agree.
    Senator Rubio. And that is great.
    Did you want to add something?
    Senator Kaine. Just on that one, I think even the fact that 
we acknowledge that as a weakness can sometimes help us in 
dialogue with other nations because if it is all like we know 
everything and we want to teach you, well, that is not too 
appealing. We are 19 percent in Congress. That is the most it 
has ever been. That ranks us 75th in the world. Iraq is 26 
percent. Afghanistan is 28 percent. Rwanda, number one, is 64 
percent. Our 19 percent is significantly below the global 
average. And part of being a great nation is feeling good about 
the things you do well but also being confident enough to look 
in the mirror and say, but here are some areas where we do not 
do well. So to enter into a dialogue--some of the nations we 
are talking about where the education stats are so poor, 
nevertheless have significantly higher representation of women 
in their national legislative bodies than we do. So to have a 
dialogue about, hey, share with us what you are doing on the 
election issue, and then we are going to share with you things 
we are doing on the education issue, I think that probably can 
lead to a more productive dialogue and progress because we do 
have some things to learn.
    Senator Rubio. I am just curious. Would you happen to know 
off the top of your head what representation is in the Foreign 
Service? It is probably higher than 20.
    Ambassador Russell. It is higher than 20. But there are 
issues in the Foreign Service. And it is interesting because in 
my job people think that I do gender issues at the State 
Department. Well, first of all, they think I am the women's 
minister in the United States. Other countries do. And then 
people in our posts think that I do gender issues in the State 
Department, which I do not. Deputy Secretary Higginbottom does 
that.
    But I do pick up a lot of this, and I think there is a 
commitment on the part of the State Department to do better. I 
am sure you know not too long ago in the 1970's, if you got 
married or pregnant, you were kicked out of the Foreign 
Service. So we have come a long way.
    But there are challenges for families in the Foreign 
Service. And honestly, I think that is something that may bear 
some looking at from your perspective because I think we lose a 
lot of talent. It is hard for families to pick up and go, and 
sometimes if you have both men and women who are in the 
service, it can be challenging when one starts----
    Senator Rubio. I think in some cases you cannot bring 
dependents----
    Ambassador Russell. Exactly.
    Senator Rubio [continuing]. In some of our more challenging 
environments.
    Ambassador Russell. Exactly. And I think it is important 
because the Foreign Service--I mean, I am not a Foreign Service 
officer. I am a political appointee. But they are really 
amazing people. They dedicated their lives to the country. I am 
just profoundly impressed always by just their patriotism, 
their commitment, their love for the United States, and how 
they represent us overseas. And I do think it is important for 
us to try to be as supportive of them as we can.
    Senator Rubio. And by the way, I am not here to pick on the 
State Department, as you know.
    Ambassador Russell. No, no.
    Senator Rubio. But in any embassy in the world, the 
majority of the people working in the embassy do not even work 
for State. They work for Commerce. They work for whomever. So 
it is across the board.
    And I too have always been impressed with the level of 
professionalism of our people that serve abroad. I always 
wonder, you guys realize you could be making four times as much 
if you did the exact same thing on behalf of Coca-Cola or 
somebody else, but their willingness to serve our country.
    I wanted to go back just because I am fresh off the trip 
from Honduras, and I am a big supporter for the Alliance for 
Prosperity. But one of the big investments we are making is in 
law enforcement and security. I should know the answer to this. 
But is part of our metrics for the success of that program the 
prosecution of gender-based violence, domestic violence? It was 
a recurring issue in my travels as well and numerous meetings 
that in many cases, depending on where you are in the country, 
men, both fathers but primarily spouses, act with impunity when 
it comes to gender-based violence because they know that the 
local judges or police officers do not view that as 
inappropriate, that in essence, that is what you do.
    Is that one of the metrics that we are looking at? You may 
not even know. Maybe we need to get the answer more in detail. 
But is that one of the metrics we are looking at, as we 
calculate how much money to continue to give, performance and 
improvement in gender-based violence, which I think is directly 
related to the other issues that they are confronting?
    Ambassador Russell. Senator, I actually do not know the 
answer to your specific question. I will get it for you.
    We work closely with INL on two fronts. One is--and other 
countries as well--trying to make sure that countries 
understand the importance of prosecuting these cases and how to 
do that. Guatemala, for example, has done a lot of work on one-
stop centers that are pretty effective, and we are trying to 
share that information with others.
    But we are also working to try to encourage these countries 
to have more women in their police force and in their 
militaries, and that is a constant prodding that we are doing 
on our side because I think it makes them more effective. 
Obviously, it gives women job opportunities, but it also shows 
the community that women can be in these positions of 
authority. And I think it is very important.
    Ms. Markham. If I could also circle back and connect the 
two questions you asked about Honduras. A good part of the work 
that USAID does in Honduras is for at-risk youth, and we have a 
model program there where we tackle the issue of school-based 
gender-based violence and preventing it. So if we can talk 
about the gender norms when boys and girls are younger and what 
is appropriate and what is not when they are making decisions 
and coming together as partners and growing up as adults, we 
can hopefully prevent some of the gender-based violence as 
well. So it is part of our broader curriculum there to address 
gender-based violence.
    Senator Rubio. Well, that is what I visited at Colonia 
Estados Unidos is one of the areas where we are involved in 
that curriculum. And a lot of it is about the school-based 
bullying and smoking is bad and drug use and things of this 
nature. And by the way, it is run by the Honduran police. It 
was women police officers that were conducting the majority of 
the program. Now, that is what they showed us. I do not know if 
that program extends beyond.
    I did want to ask you about a more difficult question. You 
know, a large portion of our overseas education aid over the 
last 15 years has been spent in Afghanistan, and $40 million of 
the $75 million requested for the Let Girls Learn initiative 
for 2017 is for Afghanistan. And yet, there was a recent SIGAR 
that found problems with evaluation methods and data used by 
U.S. agencies implementing education aid, and the ministry of 
education estimates that about 3.3 million Afghan children are 
still out of school.
    So I was hoping, Ambassador Russell, you could discuss the 
impact of U.S. investment in girls' education in Afghanistan, 
the data that supports these conclusions, and the 
sustainability of any gains that we have made there so far.
    Ambassador Russell. Thank you, Senator.
    You know, it is interesting. Afghanistan from the beginning 
of my tenure, which has not been that long, about 3 years, has 
been something that has really preoccupied a lot of our 
attention in our office. And I think it is because the 
situation was so horrible for women and girls. And we have made 
substantial progress. I mean, there is no question about that. 
We went from zero girls in school under the Taliban to now 3 
million to 4 million girls in school. We have seen a lot of 
progress on maternal life expectancy. So we see clear progress.
    Susan, most of the money that goes into Afghanistan is 
USAID money, but I can speak to some of the money that we have 
going in there, which I think is really important.
    Just out of my office, which is such a small office at the 
State Department, but we support shelters for women who are 
suffering from gender-based violence. You know, you see it in 
the paper all the time. I mean, the stories are very difficult. 
It is the same there as it is in many places. I think the root 
of these problems is that women and girls are not always 
valued, and it is seen as completely fine to abuse them and to 
do that, as I said, in many parts of the world.
    There is a real commitment I think on the part of the 
government to try to do a better job on the education front, 
and we are definitely working with them on that.
    We are also doing some work out of my office again on the 
problem of early enforced marriage because these girls are 
getting married so young. And you will see actually in this 
adolescent girls strategy there is a really famous photo--if I 
can find it, I will show it to you. But it is of two girls who 
get married and the men who marry are them are like in their 
40's. I mean, it is just a horrific picture. But I think that 
is not uncommon there. Oh, here it is. It is a really famous 
photo. And honestly, when you look at that, it really does--
page 18 and 19. But when you look at that, it really shows you 
what we are struggling with here.
    From our perspective, as hard as it is to keep these girls 
in an education setting, particularly in the provinces, the 
rural areas, it is very difficult. We are trying to get more 
women teachers there. We do not have enough there. It is 
difficult. Families make a decision that it is too dangerous to 
send their kids to school. There are lots of problems there, 
but we are trying to address those.
    And Susan can speak more broadly to----
    Senator Rubio. I am going to just add--and you may have 
seen this. So the Vice has this like Frontline series. I think 
it is a 30-minute. And they did one on Afghan women. I believe 
it was Vice. And it showed groups of women that are now banding 
together to defend and protect themselves, in essence, standing 
together.
    But what was stunning to me is in one of the interviews--
and I forget who the local official was they were 
interviewing--was being interviewed by a woman. And at some 
point in the interview, he got so annoyed with her questions 
that he basically said to her, you know what needs to happen? I 
should marry you off to an Afghan man who will cut your nose 
off or something, so he can cut your nose off or something like 
that. So you are dealing with very deeply embedded cultural 
norms that we need to continue to expose.
    Ambassador Russell. It is not unusual there for girls to be 
sold into marriage to pay off a debt. I mean, there are very 
serious problems in that culture. There is no easy answer. 
There is no one thing we can do. But I do believe that 
educating girls and trying to empower women will really 
ultimately have the greatest significance there.
    And I will say this. There are great Afghan men who believe 
in this, who are getting their girls educated, who see the 
value in that, who support their wives. But there are 
challenges every day for teachers, for girls, for women, and I 
think we have to keep at it. I personally feel as an official 
of the United States Government that we cannot walk away from 
them. We have made progress and as hard as it is, we have to 
stick with it.
    Senator Kaine. Just a data point. The life expectancy in 
Afghanistan in 2001 was about in the 40- to 45-year-old age 
range, and it is now over 60. And if you think 30 million 
Afghans times a 17-year increase in life expectancy, that is 
like 500 million years of human life. And that has largely been 
because of reduction in infant mortality and better health care 
for women and for young children. So one of the things I know 
we grapple with and we sometimes have to answer questions like 
what has this investment of American treasure and blood been 
worth. Well, it is like it has made a huge advance. It has made 
a huge advance.
    And I am on the Armed Services Committee, and I think there 
is a pretty stark contrast if we look at Afghanistan and we 
look at Iraq. It got to the end of our allotted time in Iraq, 
and they really sort of wanted us to go. In Afghanistan, they 
deeply, deeply, deeply want us to stay. And so we have to 
grapple with the accountability on dollars and making sure it 
is being spent the right way.
    But I am completely with you. The partnership that we have 
struck, whether it is our military or whether it is our USAID 
workers or our public health officials--having a functioning 
public health system for women and children has been part of a 
hugely transformative success story. I am not sure you are 
going to find a place in the world where life expectancy 
changed by 50 years within a decade. I am just not sure that 
has ever happened.
    Senator Rubio. Part of this is the holistic approach 
because I see included in this is the health care aspect of it. 
Maternal mortality has been one of the leading causes of death 
for a long time in many places. I do not know what the numbers 
are today. I am sure they are still relatively high in many 
parts of the world. But I suspect that that figure is among 
others that are included in the overall statistics--both the 
prenatal care, infant and maternal mortality--and then the 
follow-up if a child is born with disabilities in particular. I 
imagine if it is a child born with disabilities and female in 
some of these cultures, it is probably as close to a death 
sentence as you get in many cases with infanticide and things 
of this nature.
    Ms. Markham. I do think that is an important point. Do you 
know why we have an adolescent girls strategy now? I think the 
reason is because the development community has understood what 
we have both all alluded to, this idea that when a girl enters 
puberty, her life can either expand and she can imagine all the 
great things that she can do, or it can really shrink, as she 
is not allowed to travel, and she is pulled out of school in 
order to do work.
    So at USAID, we really look at this point as if we can keep 
her healthy and in school, not HIV-positive or pregnant or 
married. For every year that we can continue that education and 
keep her on an upward trajectory, it has implications for her 
life, for her family's, her earning potential, but also now we 
are seeing for her children. For every year that she stays in 
school, her children are more likely to be born healthy and to 
be educated as well. So for USAID, it is a good investment. It 
is great for our development dollars, and it can show impact 
very quickly.
    Senator Rubio. I appreciate you both being here. I know, 
Ambassador, you are on a tight time frame. I thank you for the 
work that you are doing, and this is an important topic. I 
think the one thing that is most startling is the more 
challenging the environment, the likelier there are all sorts 
of other problems coming out of there as well.
    We have not even gotten a chance to talk about some of the 
more difficult places where you may not be as involved: the 
situation in Saudi Arabia, the situation for women in many 
other parts of the world. But there is a direct correlation 
between the treatment of women and young girls in adolescence, 
and with the characteristics those nations are exhibiting on 
the international stage and the problems that are emanating 
from there, I do not think it is a stretch to say that how a 
society treats its women and girls in many ways reflects the 
general health of that society at large.
    And so the work you are doing is very important, and I look 
forward to continuing to be supportive. I thank you for coming 
in today and taking the time to share with us. Thank you so 
much.
    Ambassador Russell. Thank you. We agree totally and would 
be happy to answer any other questions or come back and talk to 
you or your staff and fill you in on anything that we are 
doing. And we really appreciate it. As I said when we talked 
earlier, the fact that you mention and ask about women and 
girls when you travel, really for both of you, that is hugely 
helpful to us because it shows what America cares about.
    Senator Rubio. And I just want you to know sometimes you do 
not have to ask. It is one of the first topics that comes up 
when you meet with civil society and rights groups. Almost 
invariably it comes up as a big challenge in these countries. 
Sometimes the government leaders deny they have a problem. They 
will show you a picture of someone. Oh, I have an employee that 
happens to be a woman. There is progress.
    Ambassador Russell. That is it.
    Senator Rubio. But the disconnect between how society feels 
about it and some of these government leaders is pretty stark. 
And we are spending a lot of money in these countries--a lot of 
money--on things unrelated to this. And I do believe it gives 
us standing to say a lot of your problems that ultimately are 
impacting us as well emanate from your treatment of women and 
young girls in your country.
    So I thank you both for being here. I appreciate it. We are 
going to get our next panel seated, and I thank you. [Pause.]
    Senator Rubio. We are going to get our next panel seated. 
Please join me in welcoming Ms. Linda Hiebert, the Senior 
Director of Education and Life Skills for World Vision; Ms. 
Meighan Stone who is the President of The Malala Fund; and Ms. 
Kakenya Ntaiya, who is Founder and President of the Kakenya 
Center for Excellence.
    So just in the interest of time, your statements have been 
submitted for the record, and I know, Ms. Ntaiya, you have a 
written statement you want to share with us as well. But I know 
that Senator Kaine has an engagement in a few minutes. So I 
want to make sure we get to everybody. And I apologize. The 
first panel ran over by a few minutes. But, Ms. Hiebert, thank 
you for coming.

STATEMENT OF LINDA HIEBERT, SENIOR DIRECTOR, EDUCATION AND LIFE 
      SKILLS, WORLD VISION INTERNATIONAL, WASHINGTON, D.C.

    Ms. Hiebert. Thank you very much, Mr. Chairman, and thank 
you for inviting World Vision to testify about the barriers to 
girls' education and the vulnerability of children to violence.
    In the interest of time, as you suggested, I have submitted 
my written testimony for the record.
    Mr. Chairman, I speak before your subcommittee this morning 
to underscore a very urgent issue. One out of every 11 children 
is out of school around the world. There are 62 million 
adolescents out of school globally and half of these are girls.
    And the trend is worse in conflict zones. One in four 
children in conflict situations do not attend school. That 
number is growing as more and more children's lives are 
disrupted by war. Girls living in conflict-affected contexts 
are twice as likely to be out of school, and 90 percent of 
girls are more likely to be out of secondary school than girls 
living in countries not affected by conflict.
    Compounding these staggering trends global aid for 
education fell by 10 percent between 2010 and 2012. Less than 2 
percent--that is, 2 percent--of all humanitarian assistance is 
spent on addressing education.
    It is appalling how under-resourced and poorly understood 
the root causes of gender inequality are. We must address these 
critical issues in a holistic way and ensure they are 
appropriately resourced.
    World Vision believes every child should be educated, 
healthy, cared for, and protected. But our hope for children is 
still far from reality. Today I would like to highlight why 
families struggle to send their daughters to school, whether 
that is due to a lack of access to safe, quality, and 
affordable education, social attitudes that do not value 
education for girls, sending girls into the labor market to 
help support the family, or limited livelihood opportunities 
for their caregivers and parents.
    We need to carefully consider the needs and barriers girls 
experience in order to more effectively meet their evolving 
education, psychosocial, and life skill needs.
    I would like to focus on two key issues where barriers to 
girls' education require critical attention: children in 
conflict, as you have already mentioned, affected in those 
contexts, and adolescent girls in secondary education.
    I would like to tell you about Mellisa, who is a 13-year-
old and from Zimbabwe. Mellisa dreams of becoming a nurse, and 
a holistic approach to her education is helping her make this 
dream reality. Mellisa is in the 7th grade and participates in 
a project run by World Vision with eight partner organizations 
called Improving Girls' Access through Transforming Education, 
or IGATE. Two years ago, she joined the IGATE girls' club 
intended to help girls like Mellisa learn about their own 
potential as individuals and as members of their society. Her 
grandmother is a member of the IGATE Village Savings and 
Lending Group to help increase the family's access to 
livelihoods and assets. Mellisa said, ``Before I never thought 
I would manage to proceed to a grade 7 because my grandmother 
was struggling to pay my school fees and also pay for other 
basic education necessities. I no longer lack anything that is 
needed for school.''
    Mellisa is now confident that she will pass the 7th grade 
and proceed to secondary school because her grandmother is able 
to pay for school fees, provide necessary school materials, and 
buy food for the family. Mellisa can now dream about her future 
and is even inspiring other girls in her community with the 
following. ``After completing my studies, I want to be a nurse 
and the encouragement that I am giving to other girls within 
the community is that they should value education and never 
drop out of school.'' Unquote.
    Addressing the barriers to education for girls requires a 
multi-sectoral response and the involvement of influential 
relationships in girls' lives, including local governments, 
school officials, teachers, religious and community leaders, 
community members, peers, and the girl's family.
    I would also like to tell you a story of 15-year-old 
Fatmeh, a Syrian refugee who fled to Lebanon's Bekaa Valley 
with her family. World Vision collaborated with NPR, the radio 
program, to profile this intelligent young woman whose only 
hope is to someday go back to school again. Fatmeh used to be a 
top student at her school in Syria before her family was forced 
to leave their home. ``Bombs and fighting were everywhere,'' 
Fatmeh said. ``So we left to survive. Now she and her four 
siblings work 14-hour days in agricultural work to help pay 
their family's debt to a Lebanese landowner who gave them a 
loan to help them escape from Syria.
    I had a dream that when I came here to Lebanon I would 
study here and go to school and become an Arabic language 
teacher,'' Fatmeh said. ``And then when I go back to Syria, my 
dream would have been achieved. But it did not work out for me 
that way.''
    Now her days are spent in the field of Bekaa Valley picking 
vegetables and weeding. When the foreman thinks children are 
not working hard enough, he will beat them with a hard plastic 
pipe.
    Despite these many hardships living as a refugee, Fatmeh 
still holds onto a very small hope of returning to school 
someday. Her mother wants the children to go back to school, 
but the family does not have the option. How can we do it? We 
are forced to work.
    In Lebanon, 60 percent of Syrian refugee children are 
involved in child labor, and 50 percent of Syrian refugee 
children are now out of school.
    As barriers to adult work are exacerbated and families fall 
more into debt, children carry the weight of providing for 
their families, sacrificing their education and often their 
safety. Indeed, we would witness a lost generation of Syria's 
children if these trends continue.
    I would like to speak today on behalf of these girls. There 
is more we can and must do for vulnerable children. And I would 
like to make the following recommendations.
    First, funding for education should be robust in our 
foreign assistance, including funding that focuses on the 
barriers to education for vulnerable children, especially 
girls, in all settings. In particular, we recommend funding the 
development assistance basic education account at the current 
level of $800 million. Congress should work with USAID as it 
develops its next strategy. In particular, we recommend a 
holistic approach that places specific emphasis on the most 
vulnerable, especially girls, ethnic minorities, and children 
with disabilities.
    And then we strongly recommend that introducing a companion 
bill to H.R. 4481, the Education for All Act.
    And then finally, since the average length of displacement 
is now 17 years, the U.S. Government must not solely rely on 
short-term humanitarian assistance to support displaced 
populations, especially with critical education programming. In 
protracted crises, the education for displaced children should 
be integrated into the national development assistance plan to 
strengthen resilience and lessen dependence on humanitarian 
relief.
    Thank you, Mr. Chairman. I really appreciate the invitation 
to speak today.
    [Ms. Hiebert's prepared statement follows:]


                Prepared Statement of Ms. Linda Hiebert

    Thank you, Chairman Rubio and Ranking Member Boxer, for inviting 
World Vision to share our experiences addressing girls' barriers to 
education and the vulnerability of children to violence. With more than 
62 million girls currently not in school, this discussion is timely and 
important to our foreign assistance objectives and for the future of 
countries around the world.
    World Vision is a Christian relief, development, and advocacy 
organization that serves millions of children and families in nearly 
100 countries. Our 45,000 employees are dedicated to working with 
children, families, and their communities to tackle the root causes of 
poverty and injustice. This work includes emergency relief and 
preparedness for people impacted by natural disasters and armed 
conflict; long-term economic development; prevention and response to 
all forms of violence against children; mobilizing children, youth, and 
local communities to hold their governments accountable; and advocating 
for effective systems and laws that provide a safety net and protection 
for vulnerable populations.
    More than one million private donors, in every state and 
congressional district, support World Vision. We partner with over 
10,000 U.S. churches, as well as corporations and foundations. Last 
year, World Vision implemented more than $2 billion in programming for 
children and communities. This included our response to 132 major 
disasters and humanitarian emergencies worldwide that reached nearly 11 
million people impacted by these crises.
    World Vision believes that every child should be able to experience 
life in all its fullness. We believe every child should be healthy, 
protected, and able to receive an education. But our hope for children 
is still far from reality. One in 11 children are out of school around 
the world today. Of the 62 million adolescents between the ages of 12-
15 who are out of school around the world, half are girls. Moreover, 
global aid for education fell by ten percent between 2010 and 2012.
    In conflict zones, one in four children do not attend school. Girls 
living in conflict-affected contexts are more than twice as likely to 
be out of school and 90 percent more likely to be out of secondary 
school than girls living in countries not affected by conflict. Despite 
these staggering trends, less than two percent of all humanitarian 
assistance is spent on education.
    Children are unable to attend school due to lack of access to safe, 
quality, and affordable education, poverty, and social norms that do 
not value education for all children. Often, girls bear the primary 
burden of these barriers. Today, I would like to highlight two key 
issues where barriers to girls' education require critical attention: 
children in conflict-affected contexts and adolescent girls in 
secondary education.
    The barriers to girls' education are context specific and can be 
multidimensional: socio-economic conditions, lack of appropriate 
hygiene facilities in schools, violence against girls in school, lack 
of female teachers and other role models, social norms and attitudes, 
long distances to school, unequal distribution of household chores, 
limited livelihood opportunities for caregivers, discrimination, and 
conflict. I will argue that addressing the barriers to education for 
girls requires a multi-sectoral response and the involvement of 
influential relationships in a girl's life, including governments, 
schools, religious and community leaders, community members, and the 
girl's family.
    My testimony today will highlight why families struggle to send 
their daughters to school, whether that is due to being unable to 
afford education costs, sending girls into the labor market to help 
support the family, social norms that do not value education for girls, 
inaccessibility of schools, or that girls are not prepared to 
effectively transition to host country curriculum after they have been 
displaced. Tragically, tackling the root causes of gender inequality in 
a holistic way continues to be poorly understood and under resourced. 
We need to carefully consider the needs and barriers girls experience 
in order to more effectively meet their evolving educational, 
psychosocial, and life skills needs. By incorporating more of a multi-
sectoral, gender-sensitive response to address the needs of girls, we 
can see more effective results that provide girls with supportive 
environments to learn, dream, and live up to their full potential.
    Mellisa is thirteen years old and lives in Zimbabwe. She is in the 
seventh grade and participates in a project run by World Vision with 
eight partner organizations called Improving Girls Access through 
Transforming Education (IGATE). In 2014, she joined a girl's club 
called Power Within, run by a partner of World Vision. Through the 
girl's club, Mellisa participated in various art and sport activities 
at school. She is also able to sew sanitary pads and learn about 
personal and menstrual hygiene. Her grandmother is member of IGATE's 
Village Savings and Lending Group to help increase the family's access 
to livelihoods and assets. Mellisa said, ``Before the introduction of 
the IGATE project in our school and community, I never thought I would 
manage to proceed to grade seven because my grandmother was struggling 
to pay my school fees and also secure other basic education 
necessities--I no longer lack anything that is needed at school.''
    Mellisa is now confident that she will pass the seventh grade and 
proceed to secondary school because her grandmother is able to pay 
school fees, provide necessary school materials, and buy food for the 
family. Mellisa has plans for her future studies: ``After completing my 
studies,'' she told World Vision, ``I want to be a nurse and the 
encouragement that I am giving to other girls within the community is 
that they should value education and never drop out from school.''
    Fifteen-year-old Fatmeh, a Syrian refugee who fled to Lebanon's 
Bekaa Valley with her family, now works instead of continuing her 
education. World Vision collaborated with NPR to tell her story. Fatmeh 
used to be a top student at her school in Syria before her family was 
forced to leave their home. ``Bombs and fighting were everywhere,'' 
Fatmeh told us. ``So we left to survive.'' Now, she and her four 
siblings work 14-hour days in agricultural fields to help pay their 
family's debt to a Lebanese landowner who gave them a loan to help them 
escape.
    ``I had a dream that when I came here to Lebanon I would study here 
and go to school here and become an Arabic language teacher here,'' 
Fatmeh said. ``And then [I hoped] when I go back to Syria, my dream 
would have been achieved. But it did not work at all with me here.'' 
Now, her days are spent in the fields of Bekaa Valley. Despite these 
many hardships of living as a refugee, Fatmeh still holds onto a ``very 
small hope'' of returning to school someday.
         in times of crisis: children want to go back to school
    In crisis contexts, education systems are three times as likely to 
be disrupted. When World Vision talks to children in emergencies about 
their needs, education consistently is one of their main responses. 
Children tell us they are out of school because of military use of 
schools, violence in schools, food insecurity, and discrimination, 
particularly because of ethnicity or disability. When children talk to 
us about how important education is to them, they closely link their 
future livelihood opportunities to their education.
    After Typhoon Haiyan in the Philippines, a girl told World Vision, 
``We should study hard to finish school in order to get a better job 
with better salary to have a good future and be able to provide for our 
family. I can't be like my parents without a stable source of 
livelihoods.'' Girls, in particular, may not go to school due to child 
marriage, increased work, or child care responsibilities in the home. 
While barriers to girls' education exist before a crisis, children tell 
us these barriers continue or are exacerbated by a crisis.
            iraq: transitioning to school after displacement
    Since the current humanitarian crisis started in Iraq in 2014, more 
than three million children and adolescents have been identified as in 
need of education in emergency interventions. One million school-aged 
children are out of school in Iraq. Some communities experienced 
numerous shocks prior to the current humanitarian crisis and have now 
been displaced several times. World Vision's education programming 
provides students displaced from conflict in Iraq with language 
classes, skills training, and preparation to transition into the formal 
education system. We found that the absence of these programs form 
barriers for displaced children attending school.
    World Vision's Let Us Learn project in the Kurdish Region of Iraq 
(KRI) was designed to meet the needs of over 12,000 displaced children 
in emergency contexts with an intense back-to- school campaign. Let Us 
Learn delivers education and child protection interventions that 
contribute to learning continuity, psychosocial well-being, and 
increased resilience of children affected by conflict.
    Our work in the KRI required extensive consultations with those who 
had been displaced to ensure that their children were prepared to begin 
formal schooling and were properly supported as they adjusted to a new 
environment. After consulting with students, families, and local 
government authorities, World Vision found that our education 
programming needed to focus on supporting children and parents to 
overcome existing challenges to school enrollment, including fear of 
once again being displaced, loss of hope for their future, and 
insufficient information about registering as Internally Displaced 
Peoples (IDPs). Education programming in conflict- affected contexts 
have a unique set of challenges. Our program in the KRI was 
particularly impacted by lack of teachers because of an overburdened 
education system due to high numbers of IDPs, insufficient space in 
schools and classrooms to accommodate additional students, and lack of 
education materials, including textbooks, book bags, and even winter 
and spring clothing.
    Children in crisis-affected contexts need specialized support 
through the education system to more safely and confidently navigate 
their changed environments and circumstances. Their recent experiences 
of displacement and violence reinforced the need for resilience and 
life skills training to effectively adjust to a challenging new 
context. The displaced children we work with in KRI needed to learn 
everything from simple actions to prevent diseases (such as washing 
their hands), to understanding their circle of family and community 
support, to an awareness of their rights and responsibilities. We also 
found that psychosocial programming provides a framework for children 
to rebuild support structures, learn coping mechanisms, and integrate 
more successfully into the education system.
    Girls, in particular, need specialized care in conflict-affected 
contexts. We have found success in designing separate classes for girls 
so they can share their experiences, dreams, and make friendships in a 
comfortable, safe environment. We have also found that sports can be an 
effective way to address gender stereotypes, and our female students 
are playing on football and volleyball teams.
    Sadly, displaced girls in the KRI are especially susceptible to 
child marriage. In fact, child marriage is one of the most common forms 
of gender-based violence in Iraq. Displaced children from the Mosul 
area, for instance, are about twice as likely to experience child 
marriage as other displaced children. We are engaging with parents 
about the importance of education for girls and provide cautionary 
messages about child marriage.
           lebanon: child labor and lack of access to school
    In Lebanon, child labor is a deeply concerning trend among Syrian 
refugee children that limits school enrollment. 60 percent of Syrian 
refugee children in Lebanon are involved in child labor.
    This is approximately 82,000 refugee children between the ages of 
12-17. 50 percent of Syrian refugee children aged 3-18 in Lebanon are 
now out of school. Only 5 percent of Syrian refugee 15-17 year olds 
attend secondary school or higher. Now, a total of 482,608 refugee 
Syrian children are in need of education. Indeed, we could witness a 
lost generation of Syria's children if such significant portions of 
Syrian refugee children continue to not attend school.
    Lebanon, in fact, has one of the highest proportions of working 
children in the world. Many refugees in Lebanon face ongoing 
displacement and other incredible hardships, such as high rent for 
inadequate shelter, that pressure refugee parents to send their 
children into the labor market. Rent can amount to the largest 
household expenditure for refugee families that leaves few remaining 
resources for food, hygiene, education, or health services.
    The majority of Syrian refugees are not permitted to legally work 
in Lebanon. Refugees must sign pledges that prohibit work for those 
over the age of 15 as part of the permit renewal process in Lebanon. As 
the Syria crisis enters its sixth year, refugees are increasingly 
vulnerable: they have depleted their lifesavings and are now going into 
debt. Consequently, refugee parents are sending their children to work 
and children are becoming the primary breadwinners. As a result, 
younger and younger children now support their families through 
entering the labor market.
    Relief organizations have found that cash assistance increases 
access to education. When correlations between cash assistance and 
child labor were studied, we found decreases in child labor, dangerous 
work, and selling productive assets when cash assistance was received 
by refugee families. World Vision is helping support families through 
cash assistance programming. Through partnering with other NGOs on this 
program, we provide $174 monthly to 16,500 vulnerable Syrian refugee 
households in Lebanon. Over 90 percent of our recipients use cash 
assistance for its intended purpose, including rent, repairs to 
existing household structures, food, winter clothing and fuel for 
winter, education expenses, and health care.
    Syrian refugees in Lebanon need effective, ongoing access to 
education and support to transition into the local Lebanese education 
system. Simply addressing enrollment will not sufficiently meet the 
needs of refugee children. World Vision has found an increasing need 
for Non-Formal Education (NFE) that can help with preparation for the 
formal school system. This non-formal approach targets the numerous 
barriers that impede success for Syrian children in Lebanese schools: 
insufficient capacity in some formal schools to host refugee children; 
language instruction in formal schools that is in French or English 
(Syrian children have been taught in Arabic); lack of familiarity with 
the Lebanese curriculum; lack of basic literacy and numeracy skills to 
successfully integrate into the formal education system; and the need 
for psychosocial support. The absence of school preparation through NFE 
can lead to learning difficulties and dropouts.
    World Vision offers this necessary school preparation through our 
early childhood education programming. We serve over 800 children aged 
3-6 in the Bekaa Valley in Lebanon. 55 percent of these children are 
girls. Our programming ensures that children who have never attended 
school are provided with the necessary education and life skills to be 
able to transition into the Lebanese school system. Furthermore, our 
program reaches the parents of our students with awareness around early 
childhood development, health, positive parenting, and child 
protection.
    zimbabwe: transformation through holistic programming for girls
    In Zimbabwe, World Vision leads a consortium of nine organizations 
with funding from the UK Department of Foreign Investment and 
Development to improve access and quality of education for 60,000 girls 
aged 10-18 years old. Before the project began, World Vision conducted 
a baseline to understand the reasons girls are not in school. The 
baseline cited poverty, distance, traditional family norms, and issues 
around menstruation and burden of household activities on girls as the 
key barriers preventing girls from accessing education. Girls were 
dropping out in the last two to three years of primary school at the 
age of 12-14. 84 percent of the households indicated that it was 
difficult to send a girl to school. 75 percent of in-school girls were 
over-age for their grade. During menstruation, 20 percent of rural 
primary school girls do not attend school and 54 percent of girls 
reported being teased due to menstruation. Of the girls interviewed, 25 
percent said that there are things that they ``are not good at'' in 
school and 17 percent reported being afraid some of the time in school. 
Moreover, 68 percent of household heads did not have a job, leaving 
families food insecure.
    To address these barriers, World Vision and our partners focus on 
nine key areas of transformation through a project called Improving 
Girls Access through Transforming Education. The nine key areas work to 
transform the top influencers in girls' access to education. The 
project starts with the girls themselves so that they understand their 
own potential, power, capacity, and knowledge. Mothers and other 
caregivers join mother's groups to understand girls' potential, the 
need for education, and the benefits of education to their daughters, 
granddaughters, and the rest of their family. This is coupled with 
financial support to the family to support girls' education. To address 
the distances students have to travel to school, the project provides 
bikes to both girls and boys. Long distances can present risks and 
leave students physically tired by the time they make it to school.
    The project works to build school capacity to ensure schools are 
girl-friendly places of learning. World Vision is working with 
religious leaders to address issues such as child marriage and other 
harmful practices that have negative consequences on girls' sexual, 
social, and educational health and well-being.
    Cultural norms in the target communities place a lower value on 
girls and leave decision-making rights with males. In response, one of 
our partners is building male champions for girls' education. To help 
boost literacy and numeracy, the project is training skilled teachers. 
Lastly, we work with communities on social accountability with the 
government. Partnership is key to ensure girls have access to 
education. Therefore, these activities are done in concert with the 
relevant government ministries to promote sustainability. While this 
four-year project is still ongoing, we are already seeing changes in 
parental approaches, application of religious practices, and girls 
returning to school.
    Through our experience in addressing the barriers to education for 
girls, World Vision has learned that we must seek to understand the 
complex reasons children, especially girls, are out of school and 
address these barriers through multi-sectoral approaches that involve 
those in a girl's life: governments, schools, traditional and religious 
leaders, parents and caregivers, communities, and children themselves. 
If we are to sustainably reduce barriers to education for girls, we 
must work in partnership with that girl's community and family to 
create quality, accessible education, address social norms, establish 
safe school environments, and promote the participation of children and 
youth.
                        policy recommendations:
    The U.S. government has several opportunities to strengthen its 
investments in education around the world. The current USAID strategy 
highlights the educational needs of girls and challenges of children 
affected by conflict. Education for girls and gender equality is a 
cross cutting theme in the strategy. Let Girls Learn, which was 
launched this year, takes this a step further for adolescent girls. It 
looks specifically at barriers that keep adolescent girls from 
secondary education, including physical, cultural, and financial 
obstacles. The U.S. can lead in addressing the barriers to education 
for vulnerable children. World Vision recommends the following:


   As USAID develops its next education strategy, it should consider a 
        holistic approach that takes into account the complex barriers 
        to education and places specific emphasis on the most 
        vulnerable, especially girls, ethnic minorities, and children 
        with disabilities.

   Funding for education should be robust in our foreign assistance, 
        including funding that focuses on the barriers to education for 
        vulnerable children in all settings. In particular, we 
        recommend funding the Development Assistance Basic Education 
        Account at $800 million.

   The Senate should strongly consider introducing a companion to H.R. 
        4481, the Education for All Act. We understand that such 
        efforts are underway and would welcome a bipartisan effort to 
        strengthen the U.S. commitment to basic education.

   Since the average length of displacement is now 17 years, the U.S. 
        government must not solely rely on short-term humanitarian 
        financing to support displaced populations, especially with 
        critical education programming. In protracted crises, education 
        for displaced people should be integrated into national 
        development assistance plans to strengthen their resilience and 
        lessen dependence on humanitarian relief. More than half of the 
        world's 60 million displaced people are children under the age 
        of 18.

   World Vision welcomes the U.S. initial commitment of $20 million 
        towards Education Cannot Wait: A Fund for Education in 
        Emergencies, launched at the World Humanitarian Summit. As the 
        fund continues to grow and meet the needs of children out 
        school because of conflict and disasters, we urge the U.S. to 
        continue support for the fund.


    Thank you, Chairman Rubio and Ranking Member Boxer, for your 
commitment to girls' education and for your steadfast dedication to 
remove barriers that inhibit girls from receiving or completing their 
schooling. World Vision looks forward to further working with the 
subcommittee to address these critical concerns.


    Senator Rubio. Thank you very much.
    Dr. Ntaiya?

  STATEMENT OF KAKENYA NTAIYA, PH.D., FOUNDER AND PRESIDENT, 
       KAKENYA CENTER FOR EXCELLENCE, NAROK COUNTY, KENYA

    Dr. Ntaiya. Good morning, Chairman Rubio and Senator Kaine.
    My name is Kakenya Ntaiya and I am the Founder and the 
President of the Kakenya Center for Excellence. Thank you for 
inviting me to testify on the barriers of girls' education.
    The Kakenya Center for Excellence is an NGO based in my 
village in Kenya that educates and empowers vulnerable girls in 
rural Kenya. I am here to tell you two stories about the 
opportunities we create when we educate girls. One is my 
personal story that inspired the creation of the Kakenya Center 
for Excellence, and the other is the story of Faith, one of our 
4th grade girls.
    I was engaged at the age of 5, was supposed to be married 
as I reached puberty. The traditional path for me was to 
undergo female genital cutting and to be married while I was a 
teenager, but I really wanted to go to school and be a teacher. 
Girls in my village are prepared from a young age to be 
mothers. Just like all the girls in my village, I was required 
to gather firewood, fetch water from the river, take care of my 
siblings, cook, and keep the house clean. After all that, we 
could go to school until we were cut.
    I wanted something different. I negotiated with my father 
that I would undergo female genital cutting if he allowed me to 
continue with school. He took the deal.
    After I finished high school, which is very unusual for 
many girls in my village, I negotiated with the men in my 
village to allow me to come to school in America. I promised 
that I would come back and use what I learned to help my 
village. Many boys had come to school in America, but they had 
never come back to the village. I was allowed by the elders in 
my community to leave my village and study in America.
    In 2009, while a graduate student at the University of 
Pittsburgh, I worked to open the first primary school for girls 
in my village with the help of many friends and supporters. I 
was tired of hearing about young girls being forced into early 
marriages or subjected to female genital cutting or left at 
home to care for their siblings and not given an opportunity to 
continue with school.
    We started a boarding school for 4th through 8th girls that 
has helped 277 girls get a good education while also teaching 
them about their health and their rights. We started a health 
and leadership training program that serves 3,000 girls and 
boys each year. We have expanded beyond our boarding school 
because the demand for our program is so great. We do not have 
the capacity to serve the hundreds of girls who show up for the 
40 slots we have in our boarding school each year. I am also 
pleased to share that we have continued to support our 
graduates to continue into high school. Today we are supporting 
95 girls in high school with scholarships, mentoring, and 
training so that they can continue their progress.
    Faith's story is one that inspires me and frightens me 
because of all the girls living in extreme poverty and 
hopelessness that we are not able to enroll in our school. 
Faith is 9 years old. She has five siblings and 10 stepbrothers 
and sisters. Her father is married to three wives, and Faith's 
mother is the third wife.
    Last year in December, Faith got up very early in the 
morning and asked several members of her family to bring her to 
enroll in our school. Her father said no. Her mother said no 
because she needed to earn money to feed the family that day.
    Faith took an egg and sold it in the market to buy a 
pencil. She walked 4 miles to our school over very rough roads. 
We have hundreds of girls and their families on our campus on 
enrollment day. I did not realize that Faith was all alone or 
no family member had come with her until she broke down during 
the family interview. After we got her calmed down, she said 
that her father did not have any money but she had done all she 
could to come to get into school. I told her that she would be 
able to come to our school and start in 4th grade.
    The next day, she brought her mother because her mother 
told her she would not be able to go to school because they did 
not have money for school. I told her mother to bring her to 
school because we will take care of the rest.
    I think of the determination and the potential of a girl 
like Faith who does what it takes to get into school. I think a 
willpower like that will create new female leaders in Kenya 
that can help us face all the challenges in our country and 
around the world. How many talents are we wasting when we do 
not put resources into girls' education?
    One of my favorite things to watch is the pride of the 
fathers as they watch their daughters learn, as they watch them 
get the highest marks on the national exam, as they watch them 
stand up for themselves and plan their futures as doctors and 
lawyers. Fathers are the ones out front saying our girls will 
not be subjected to female genital cutting. Our fathers are the 
ones convincing other fathers that there is a better future for 
the girls.
    The Kakenya Center for Excellence is changing fathers, 
changing mothers, changing some of the deeply rooted cultural 
practices that hinder girls from continuing with school in 
rural Kenya. We have an effective model to share with other 
rural communities who have high rates of early forced marriages 
and female genital cutting.
    Chairman Rubio and Kaine, plus all other Senators, you have 
an important role in the success of the Kakenya Center for 
Excellence and other NGOs like ours who are eradicating 
destructive cultural practices. We have been able to assemble 
private donors to educate future leaders in Africa. It will 
take many more resources, including the support of the U.S. 
Government, to scale our model and share our strategies with 
other rural communities in Africa and beyond. A girl who is 
educated has impact beyond her village. She has an impact on 
the world.
    Thank you very much.
    [Dr. Ntaiya's prepared statement follows:]


                The Prepared statement of Kakenya Ntaiya

    Good morning Foreign Relations Subcommittee members. My name is 
Kakenya Ntaiya and I am the Founder and President of the Kakenya Center 
for Excellence.
    The Kakenya Center for Excellence is an international NGO based in 
my village in Kenya that educates and empowers vulnerable girls in 
rural Kenya. I am here to tell you two stories about the opportunities 
we create when we educate girls. One is my personal story that inspired 
the creation of the Kakenya Center for Excellence. The other is the 
story of Faith one of our fourth grade girls.
    I was engaged at 5 years old to a boy in my village. The 
traditional path for me was to undergo Female Genital Cutting (FGC) and 
to be married while I was a teenager, but I really wanted to go to 
school and be a teacher. Girls in my village are prepared from a young 
age to be mothers. Just like all the girls in my village, I was 
required to gather firewood, fetch water from the river, take care of 
my younger siblings, cook and keep the house clean. After all that, we 
could go to school until we were cut.
    I wanted something different. I negotiated with my father that I 
would undergo FGC if he allowed me to continue with school. He took the 
deal. After I finished high school, which is very unusual for many 
girls in my village, I negotiated with the men in my village to come to 
school in America. I promised that I would come back and use what I 
learned to help my village. Many boys had come to school in America but 
they never came back to the village. I was allowed by the elders in my 
community to leave my village and study in America.
    In 2009, while a student at the University of Pittsburgh, I worked 
to open the first primary school for girls in my village with the help 
of many friends and supporters. I was tired of hearing about young 
girls being forced into early marriages, or subject to FGC, or left at 
home to care for their siblings and not given an opportunity to go to 
school.We started a boarding school for 4th-8th grade girls that has 
helped 277 girls get a good education while also teaching them about 
their health and their rights.
    We started a health and leadership training program that serves 
3,000 girls and boys each year. We have expanded beyond a boarding 
school because the demand for our programs is so great. We don't have 
the capacity to serve the hundreds of girls who show up for the 40 
slots we have in our boarding school each year. I am also pleased to 
share that we continue to support graduates of our boarding school 
while they continue on to high school. Today, we are supporting 95 high 
school girls with scholarships, mentoring and trainings so that they 
can continue their progress.
    Faith's story is one that inspires me and frightens me because of 
all the girls living in extreme poverty and hopelessness that we are 
not able to enroll in our boarding school. Faith is nine years old. She 
has five siblings and ten stepbrothers and sisters. Her father is 
married to three wives and Faith's mother is the third wife. Last year 
in December, Faith got up very early and asked several members of her 
family to bring her to enroll in our school. Her father said no. Her 
mother said no because she needed to earn money to feed the family that 
day. Faith stole an egg and sold it in the market to buy a pencil. She 
walked 4 miles to our school over very rough roads. We have hundreds of 
girls and their families on our campus on enrollment day. I did not 
realize that Faith was all alone--no family member had come with her--
until she broke down during the family interview. After we got her 
calmed down, she said that her family didn't have any money but she had 
done all she could to come to get into school.I told her that she would 
be able to come to our school and start the 4th grade.
    The next day she brought her Mother because her mother told her she 
wouldn't be able to go to school because they didn't have money for 
school. I told her mother to bring her to school because we would take 
care of the rest.
    I think of the determination and the potential of a girl like Faith 
who does what it takes to get into school. I think determination like 
that will create new female leaders in Kenya that can help us face some 
of the challenges in our country and around the world. How many talents 
are we wasting when we don't put resources into girls' education?
    One of my favorite things to watch is the pride of the fathers as 
they watch their daughters learn, as they watch them get the highest 
marks on the national exam. As they watch them stand up for themselves 
and plan their futures as doctors and lawyers. Fathers are the ones out 
front saying our girls will not be subjected to Female Genital Cutting. 
Our fathers are the ones convincing other fathers that there is a 
better future for the girl child.
    The Kakenya Center for Excellence is changing fathers, changing 
mothers and changing some of the deep rooted cultural practices that 
hinders girls from continuing with school in rural communities in 
Kenya. We have an effective model to share with other rural communities 
who have high rates of early forced marriage and FGC.
    Senators, you play an important role in the success of the Kakenya 
Center for Excellence and other NGOs like ours who are fighting 
traditional cultural practices. We have been able to assemble private 
donors to educate future leaders in Africa. It will take many more 
resources, including the support of the U.S. government, to scale our 
models and share our strategies with other rural communities in Africa 
and beyond. A girl who is educated has impact beyond her village. She 
has an impact on the world.
    Thank you for the opportunity to share the Kakenya Center for 
Excellence, Faith's and my story with you.


    Senator Rubio. Ms. Stone?
    Thank you, Doctor, for your testimony.

            STATEMENT OF MEIGHAN STONE, PRESIDENT, 
               THE MALALA FUND, WASHINGTON, D.C.

    Ms. Stone. Hi. Good morning. My name is Meighan Stone, and 
I am so honored to serve as the President of The Malala Fund 
and to join you today. Thank you so much for inviting the fund.
    I wanted to just read a letter from Malala. She is not here 
today because she is actually in her school. She has been 
taking exams where she feels every girl should be. So she was 
honored, in between studying, to send you a letter. Thank you 
for hearing her thoughts.
    She says when the Taliban first came to my home in the Swat 
Valley in Pakistan, they banned all education for girls. My 
father Ziauddin was a teacher. He and his friends challenged 
the Taliban on the rights of girls. A little while later, the 
Taliban agreed to allow girls to go to school for 3 years but 
no further.
    Why? The Taliban knew that primary education would give 
girls basic skills they needed to fulfill roles they approved 
of for women, serving their husbands and doing housework.
    But they also knew that it was not enough education to 
allow them to think critically, to take control of their 
futures or be leaders in their communities.
    Globally, more than 63 million girls are out of school and 
denied their right to education. Without access to a full 12 
years of education, we know that girls' opportunities are 
limited and that many will continue to marry and have children 
while they are still young.
    I have seen that donor countries often have many good 
intentions to get more girls in school, but do not commit 
funding that leads to real change for girls like me. As a 
student in Pakistan, I have often heard world leaders pledging 
support to give more children access to education, but still 
there was no secondary school for girls in my village until The 
Malala Fund started to build one with local partners.
    I am asking the United States and other donor countries for 
funding for 12 full years of education to ensure the poorest 
girls around the world receive the education they need to 
succeed.
    I feel lucky to be able to complete my secondary education 
as many girls in my village are still missing out on school and 
to have the opportunity to address leaders like you on their 
behalf.
    They want you to know that they are ambitious and they want 
an education that will allow them to fulfill their potential 
and provide for their families, just like girls in the U.S. I 
hope together that we can make that a reality.
    Thank you. Malala.
    I am going to abbreviate my remarks and just focus mostly 
on the recommendations Malala asked us to share and start with 
a thank you. I think so many times advocacy organizations like 
our own do not take time to say thank you when there is actual 
leadership from government. So we want to just say a special 
thank you to the U.S. Government for your recent commitment for 
the Education Cannot Wait fund.
    And we wanted to say a special thank you for the $5.1 
billion in funding that the U.S. has dedicated to Syria 
humanitarian relief. Malala and myself were at the Supporting 
Syria Summit in London in February, and there Secretary Kerry, 
of course, announced about $290 million in funding to help 
children go to school in Jordan and Lebanon. That was an 
extraordinary commitment on behalf of the U.S. Government. 
Thank you for your leadership.
    So in addition to her gratitude--because Malala is Pashtun, 
she always starts with hospitality and gratitude--we want to 
leave you three recommendations that she wanted us to share.
    First, she hopes that you will increase funding for girls' 
education. We can talk about girls a lot, and we can say the 
right talking points, but the numbers reveal the real truth. We 
have seen education funding flatline all over the world, 
including in the U.S. We really want to see an increase in the 
budget this year. There is unprecedented need. The great hope 
is that $875 million will be dedicated to bilateral education 
funding and that $125 million will go to the Global Partnership 
for Education, of which Malala is a dedicated champion because 
she believes strongly in their work. This is a really small 
down payment on our future, and it is funds we can either pay 
now or we will pay dearly for in the future in an unstable 
world.
    Second, in Malala's own experience and The Malala Fund's 
work globally, we know that developing country educators and 
frontline organizations are best placed to understand the needs 
of girls in their own communities. However, we see that the top 
20 recipients of USAID funding are actually U.S.-based 
organizations. We need to see the real numbers dedicated in 
terms of funding to help leaders change their own countries. 
That is the only way we are going to see resilient change.
    Lastly, we believe this committee has a tremendous 
difference you can make on transparency. We would ask that you 
would consider directing the Congressional Budget Office to 
determine exactly how much the U.S. Government spends on actual 
girls' secondary education, not wraparound services which are 
vital, but direct resources to educate girls between the ages 
of 12 and 18 and how much is being spent in each country. Often 
in our meetings with government officials, they do not know the 
answer to this question, and that data is vital.
    We hope you will also apply that same stringent approach to 
data with our developing country partners because girls like 
Malala know all too well that we need to focus on what happens 
when the funds arrive to the country, not just what happens 
here in appropriations. We have to demand real data 
measurement. If we say girls count, we have to count them. We 
need to have real vision and ambition for ministries of 
education when they use this funding.
    In closing, in light of current events, we felt it was 
important to note that Malala is a proud Muslim. It is a faith 
that she holds dear and inspires her work for peace and 
education. Our Malala Fund team, many of whom are here with me 
today, is made up of mostly women, and they are mostly the next 
generation of leaders that we hope to see leading globally. We 
are Christian. We are Jewish. We are Sikh, B'hai. Our staff is 
Hindu, gay, straight. We are Pakistani. Our team is Nigerian, 
British, Afghan, South Sudanese, Malawian, Indian, and 
American. And I am probably forgetting a few countries even in 
that long list. Despite our differences, we stand for ourselves 
but never against each other. We are united in hope and in 
commitment.
    I want to leave this honorable committee with a request, a 
humble request from Malala and from our team, and it is the 
evidence of which we see in action every day, to be willing to 
suspend disbelief for just a moment and to consider that the 
current media and political landscape hides an incredible 
opportunity, that the young women and also men of Malala's 
generation globally who are often not at the summit negotiation 
table, who are not yet in parliaments, but who are desperate to 
learn and lead their countries towards change are not just a 
youth bulge, but they are the very key to unlocking peace and 
stability in the countries in which we see conflict today. We 
do not see them in peace negotiations, but we find them so 
easily online. We do not see them quoted in newspapers, but 
they are so eager to talk to us and to share if we are only 
willing to listen. They are hiding in plain sight.
    Some see a young Syrian as a threat, but the young Syrian 
women we meet in refugee camps want to go to school and become 
journalists. They want to rebuild their nation. They want to 
serve in government because they see the change that needs to 
happen. They want to change our world for good just like 
Malala. They need our faith and our partnership not 
condemnation or doubt. They need an education just like we do 
here, just like we hope for our own daughters in America. They 
need our leadership and our generosity, and that is something I 
know we all agree and believe is one of America's greatest 
strengths.
    Malala defended her own education at great personal peril 
and risk. Today she is fighting to make sure all girls can go 
to school for a full 12 years because she understands that 
education is the key to their futures and to ours as well.
    So on behalf of millions of girls around the world, Malala 
thanks you for your leadership, and she asks for your support 
and continued commitment to education for all. Thank you.
    [Ms. Stone's prepared statement follows:]


                  Prepared Statement of Meighan Stone

    Good morning, my name is Meighan Stone. I am honored to serve as 
president of the Malala Fund and to join you today.
    I would like to begin by reading a statement from Malala Fund co-
founder, student, education advocate and Nobel Peace Prize Laureate, 
Malala Yousafzai. She isn't able to be with us today as she is in her 
own high school, attending class--where she believes every girl should 
be.


          Chairman Rubio, Ranking Member Boxer and Members of the 
        Subcommittee, thank you for inviting me to provide a statement 
        on the issue of girls' education, a campaign to which I have 
        dedicated my life and which impacts so many of my sisters 
        around the world.
          When the Taliban first came to my home in the Swat Valley in 
        Pakistan, they banned all education for girls. My father 
        Ziauddin was a teacher. He and his friends challenged the 
        Taliban on the rights of girls. A little while later, the 
        Taliban agreed to allow girls to go to school for three years--
        but no further.
          Why? The Taliban knew that primary education would give girls 
        basic skills they needed to fulfill roles they approved for 
        women--serving their husbands and doing housework.
          But they also knew that it was not enough education to allow 
        them to think critically, take control of their futures or be 
        leaders in their community.
          Globally, more than 63 million girls are out of school and 
        denied their right to education. Without access to a full 12 
        years of school, we all know that girls' opportunities are 
        limited, and many will continue to marry and have children 
        while they are still young.
          I have seen that donor countries often have many good 
        intentions to get more girls in school, but do not commit 
        funding that leads to real change for girls like me. As a 
        student in Pakistan, I often heard of world leaders pledging 
        support to give more children access to education, but still 
        there was no secondary school for girls in my village until 
        Malala Fund started to build one with local partners.
          I am asking the United States and other donor countries for 
        funding for 12 years of education to ensure the poorest girls 
        around the world receive the education they need to succeed.
          I feel lucky to be able to complete my secondary education as 
        many girls in my village are still missing out on school, and 
        to have the opportunity to address leaders like you on their 
        behalf.
          They want you to know they are ambitious and want an 
        education that will allow them to fulfill their potential and 
        provide for their families, just like girls in the U.S. I hope 
        together we can make that a reality.
              Thank you, Malala


    We meet today at a critical time of instability for not just girls, 
but our nation and world. Malala believes education is the answer to 
these challenges--but only if we act.
    For refugee girls, the situation today is grave. Girls living in 
conflict-affected countries are nearly 90% more likely to be out of 
secondary school than their peers in peaceful countries.
    Every year of school these children miss costs them dearly in lost 
opportunities for themselves and the future of their country and 
creates a vacuum in which fear and extremism can take hold.
    Malala is thankful for the U.S. government's support for education 
in emergencies, through recent commitments to the Education Cannot Wait 
Fund and the U.S. government's leadership in $5.1 billion USD in Syrian 
humanitarian relief since the start of the conflict.
    Malala and I attended the Supporting Syria summit in London in 
February. We were grateful to hear Secretary Kerry announce more than 
$290 million in new U.S. development assistance to educate refugee 
children living in Jordan and Lebanon. Thank you.
    In addition to sharing Malala's gratitude, we come today to 
respectfully share three requests from Malala, on behalf of girls 
globally, with the Committee.
    First, at this critical moment, Malala hopes you will increase your 
support for girls' education around the world.
    As Malala mentioned and as everyone here knows, millions of girls 
cannot go to school for 12 years--yet somehow education aid globally is 
actually declining and in the U.S. has flatlined. The President's 
recent budget request calls for the same amount in basic education 
funding next year as the United States is giving this year.
    In the 2017 budget, we ask the U.S. to allocate 875 million dollars 
for bilateral education aid and 125 million dollars for the Global 
Partnership for Education, of which Malala is a dedicated champion. 
This is a small down payment on a peaceful, prosperous future--funds we 
will pay later if not now, and dearly, to ensure stability.Second, in 
Malala's own experience and the Malala Fund's work globally, we know 
that developing country educators and frontline organizations--not 
international contractors--best understand girls in their communities 
and are best placed to develop solutions. Today, the top 20 recipients 
of USAID funding are all U.S. based organizations. We urge the U.S. 
government to invest more in local organizations and national 
governments to more effectively and sustainably address the issues 
keeping girls from learning.
    Lastly, we also believe this committee can make a tremendous 
difference on transparency. We ask that you would consider directing 
the Congressional Budget Office to determine exactly how much the U.S. 
government directly spends on actual girls' secondary education--
specifically ages 12 to 18--and in which countries. We have found that 
often even U.S. government officials cannot provide clear answers on 
this question.
    Malala believes the U.S. can also be a leader in demanding data and 
results from our developing country partners too. Girls like Malala 
know all too well that we need to focus as much on what happens once 
the funds are in country as we do when appropriated and to not tolerate 
graft, or lack of data measurement, vision or ambition from Ministries 
of Education.
    In closing, with the current events, I feel it's important to note 
that Malala is a proud Muslim, a faith she holds dear and inspires her 
work for peace and education. Our Malala Fund team is made up of mostly 
women, with many of them from the next generation of global leaders. We 
are Christian, Jewish, Sikh, B'hai, Hindu, gay, straight. We are 
Pakistani, Nigerian, British, Afghan, South Sudanese, Malawian, Indian 
and American. Despite our differences, we stand for ourselves, but not 
against each other. We are united in hope and commitment.
    I want to leave this honorable committee with a request, the 
evidence of which we see in action every day, to be willing to suspend 
disbelief for a moment, to consider that the current media and 
political landscape hides an incredible opportunity. That the young 
women and also men of Malala's generation, those who are not often at 
the summit negotiation table, or yet in Parliaments, but who are 
desperate to learn and lead are not just a ``youth bulge,'' but the 
very key to unlocking the peace and prosperity we all seek. I don't 
ever see them in peace negotiations, but I find them easily online. I 
don't hear them quoted in newspapers, but they are so eager to talk to 
share if we will only listen. They are hiding in plain sight.
    Some see a young Syrian as a threat. But the young Syrian women we 
meet in refugee camps want to go to school and become journalists and 
rebuild their nation. They want to serve in government. They want to 
change the world for good. But they need our faith and partnership--not 
our condemnation, or doubt. They need an education. They need our 
leadership and our generosity, something we all believe is still 
America's greatest strength.
    Malala defended her own education at great personal risk. Today she 
is fighting to make sure all girls can go to school for 12 years 
because she understands that education is the key to their futures and 
to ours as well.
    On behalf of millions of girls around the world, Malala thanks you 
for your leadership and asks for your support and continued commitment 
to education for all. Thank you.


    Senator Rubio. Thank you, and thank you for your testimony.
    Let me begin with Ms. Ntaiya. Your website explains some of 
what is involved in the selection process for the students at 
the boarding school. It notes that the orphans are 
automatically accepted, otherwise they have to come with one 
parent, as in the story you just told.
    I was wondering how many of the students that you have are 
orphaned.
    Dr. Ntaiya. About 20 percent of our students are orphans 
mostly because others--they are hidden. And when we take 
enrollment, they might not come. So sometimes we have to follow 
up to know a certain family, the parent died, and we have to go 
look for the kid because what happened is a girl, when the 
parents are not available or dead, she becomes house help for 
the grandfather, for the grandmother, or the other people in 
the homes. And she is really hidden from the society, and that 
is what happens.
    Senator Rubio. How do they typically find out about the 
school?
    Dr. Ntaiya. Through word of mouth, but we also run a health 
and leadership program that we integrate within schools in our 
community. We work with about 40 schools, and within those 
schools, they hear about our Center for Excellence. But also in 
the last 3 years, our school has performed the best in the 
county that we are in, and that word goes out and everybody 
wants to bring their daughter. So last year we had 230 girls 
apply. We could only take 40 girls.
    Senator Rubio. For the ones who do have a parent at least, 
maybe two, the fact that they even came to the school is 
usually an indication that the parent is supportive of 
education?
    Dr. Ntaiya. It is a way that they want to educate, but most 
of the parents--they just want to get rid of the girls because 
one burden is out. And when we take them in our school, we do 
support fully the students that come into our school. So the 
parent feels that if she can just go there, they are forgotten, 
but it is also a sign that they are committed to what we do 
because every parent that comes into our school--once they are 
enrolled, all the girls cannot be mutilated. They cannot be 
married out early. They are committed to ensuring that the girl 
continues to high school. And they are always committed once a 
month to come and visit the girls, and it is a commitment that 
has brought joy eventually to the girls and to their parents.
    Senator Rubio. That is the follow-up question. So you 
described a scenario where a parent basically is looking for a 
place, sadly, to get rid of one more mouth to feed in the home, 
and the school provides that outlet. And that is a terrible 
situation.
    But once these girls complete their schooling and emerge 
educated, succeeding, have you seen changes in the family where 
suddenly they view it differently? All of a sudden, that is 
replaced with a certain sense of parental pride that perhaps 
initially was not there?
    Dr. Ntaiya. What has been very amazing is when the girls 
are given the opportunity, they bring pride to their families. 
Most of the time, they are brought in there. Of course, the 
parent is saying, you know, just take her. It is less burden. 
But eventually that girl ended up bringing their girls, their 
sisters, to some of the programs we have. They end up ensuring 
that the father is educating the other girls or all kids in her 
family. We have a lot of parents meetings that parents come, 
and the girl ensures that the parents come to the parents 
meeting.
    In this ripple effect, you see a pride that first the 
father is not sure whether they should allow this girl to go to 
this school, and then she is accepted, and then I am not sure 
if she is not going to go through female genital cutting. And 
then these girls perform the top of a class in the whole county 
that we are in, and all of a sudden, their father, who has 
never gone to school, their mother, who has never gone to 
school, is out there saying this is my daughter and I want her 
to go to school.
    They have been fortunate because I myself grew up in the 
village. I told and I showed the community what it means to 
educate a woman. I came to this country. I got my education, 
but I went back and really invested in them. So they have this 
saying that if you educate a girl, we have seen her fruits. And 
that is kind of the whole idea they have now of girls that go 
to our school, and even those who are not going to our school, 
if they can get a scholarship to go to high school, they can 
come back and help us.
    Senator Rubio. Is the Kenyan Government supportive?
    Dr. Ntaiya. Yes. We do work with the Kenyan Government, 
especially the local ministry especially when we do our 
trainings in different schools that we are in. We work with 
them in the measurement and evaluation in evaluating our 
program. We are really key about quality because the Kenyan 
Government allowed free primary education that really ended up 
to destroying the quality of the education that was coming out 
in all the schools. And for us, we know we have 40 students. 
That is a big number when you think about it, but compared to 
other schools who have 40 students--that have up to 100 
students in one class, our quality is very high. And the 
government really takes pride in that when you compare. It is 
like a competition we have ranking in the country. All of a 
sudden, you find that the government is saying we are partners, 
and they are very supportive. They have helped us build some of 
our buildings in our school. Yes, thank you.
    Senator Rubio. Ms. Hiebert, in your testimony, you stated 
enrollment is not enough in refugee situations. If you could 
take time to expand on that exactly what that--I think I know 
what you mean, but if you could expand on that for the record.
    Ms. Hiebert. Sure. Thank you, Senator.
    Yes. We know that we have made great progress in terms of 
enrollment for children getting into primarily primary grade 
levels over the last several years with the MGBs. But 
enrollment is not enough. We need to actually have quality 
education, and particularly when we are thinking about children 
who are in crisis and conflict situations, those are the 
children who are at most risk. We know that there are 
generations of children who will be lost if we do not have them 
just in school, but also have them learning quality education 
in school.
    But secondly, the other part of that is the non-formal 
education. So, for example, in Lebanon where we are working, we 
have a non-formal education program for students who are not 
able to attend school either because there is not a space for 
them or because they are working. And yet, we have a challenge 
with the Lebanese Government to approve that non-formal 
education. So access is not enough.
    Senator Rubio. I think you also talked about it in the 
sense of the bill that you had spoken about. There was a House 
version, not a Senate version.
    But what are the top areas where the U.S. Government can 
intervene effectively to support either girls' education or 
educational programming for refugee children?
    Ms. Hiebert. Particularly I was delighted to hear that my 
colleague also talked about the Education Cannot Wait Fund. I 
think that is a critical piece for us to continue to support. 
The U.S. Government has pledged $20 million. From our 
perspective, it would be great if we could pledge more, 
particularly for education emergencies.
    As I mentioned, only 2 percent of humanitarian assistance 
goes towards education. It is a neglected area of our U.S. 
Government programs. So we do need to have more financial 
support.
    I think also supporting the SDGs, and again the U.S. 
Government has done a great job in supporting the SDGs. But we 
would really urge all of our foreign policy staff, as they 
engage with governments overseas, to really look at how their 
policies are affecting particularly children in conflict and 
crisis situations, but also particularly girls as well. So that 
would be another key piece.
    And then I think working with Senator Durbin on the 
companion piece of H.R. 4481, that would be great if we could 
have the Senate take up that piece, that legislation on 
Education for All Act.
    So those would be two key pieces.
    Senator Rubio. Ms. Stone, I know that Nigeria is one of the 
challenging countries where the fund is at work. Can you tell 
us a little bit more about your work with the kidnapped girls 
that have escaped Boko Haram?
    Ms. Stone. Yes. Thank you, Senator.
    So Malala was honored to travel there 2 years ago on her 
birthday, which the U.N. named Malala Day, and she thought it 
was important to go, do two things: to meet with the families 
of the girls who were abducted to stand in solidarity with them 
because as a girl impacted by conflict herself in her own 
community, she knows that story and she wanted to be there with 
who she calls her sisters and their families. And so she met 
with the families of the girls who had been abducted. She made 
a commitment at that time that any girl who returns, that the 
Malala Fund would pay for their education to complete high 
school, which we have done for a number of the returnees who 
have escaped from Boko Haram, which we are honored to do.
    And she met with the President at that time, Goodluck 
Jonathan, I think who was a bit surprised at how pointed her 
questions were about not only the response to the lack of 
safety for school girls but also the lack of robust data and 
funding to support girls' secondary education in Nigeria. It is 
a place where we continue to work. We have incredible local 
partners there that are finding powerful ways to work within 
the cultural context to help girls in Kaduna State and in the 
north where Boko Haram is active to actually access education 
at great peril.
    Senator Rubio. In her home country of Pakistan, it has the 
second largest number of girls who are not in school in the 
world. I know you have worked with vulnerable unmarried girls 
to provide access to quality post-primary education. For the 
girls who were child brides, what has been the typical response 
of their husbands? And do you work with girls who may already 
have children themselves?
    Ms. Stone. This is an issue for anyone focused on girls' 
secondary education is what happens when a girl is married when 
she is too young and she may or may not have children. And a 
lot of policies will not allow them to return to school. This 
is a place where the U.S. Government can say, when we bring 
this funding, we also expect you to change the law to allow 
girls to have access to a right to the age of 18. We can 
support local leaders who are pushing and fighting for that in 
their own country.
    We find that----
    Senator Rubio. In Pakistan in particular, the girls that 
are child brides--what has been the typical response both from 
government and from their husbands and from the society?
    Ms. Stone. I would say two things. One is that it is not 
seen as a right of a girl to return to school when she gets 
married or when she has a child.
    But the thing I would say immediately following is we see 
in Malala's own family that tremendous change can happen within 
a generation. Her father--Ziauddin's father was a mullah and a 
cleric and had different perspectives on the rights of women. 
Malala would be the first to tell you it was her father's 
empowerment and belief in her not only as an education--you 
know, deliver himself as a teacher, but believing powerfully in 
his daughter. And I think sometimes we look at this part of the 
world and we think things are intractable. But we see in their 
own family that generationally there can be incredible change 
if you reach out to communities and work with them intensively.
    Senator Rubio. Has that been the experience in your work in 
Pakistan?
    Ms. Stone. We have definitely seen promise. We are able to 
work in Khyber Pakhtunkhwa where the Taliban have been active, 
and we found that there is absolutely opportunity to work with 
local community leaders to ensure that more girls can go to 
school.
    Senator Rubio. I know that on her 18th birthday, she 
traveled to Lebanon. Is that correct? And she had opened an 
all-girls school near the Syrian border. It was named in her 
honor. Could you give us an update on that school? For example, 
how many girls are enrolled? For those girls who graduate, what 
sort of employment or university-level educational 
opportunities exist for them as refugees? How is it going 
there?
    Ms. Stone. Thank you, Senator. We are pleased to report on 
it.
    I was actually with her on that trip. There is a local 
partner there--and this gets to the point of local issue--
called the Kayany Foundation that built that school. There are 
over 300 girls who are enrolled. As someone referenced earlier, 
in Lebanon, they do not allow for formal camps. Those are 
coming from informal squatter communities. They have become 
enrolled. They are progressing in their studies. None of them 
are old enough to have graduated yet, but we cannot wait to see 
that happen one day.
    The curriculum there is a modern curriculum. It gives them 
digital training and other skills not just a post-colonial 
education, which is rote memorization, but really critical 
thinking skills they need to get real jobs.
    Senator Rubio. How many girls are enrolled?
    Ms. Stone. Over 300, and we are actually funding a second 
school with the same foundation, and we are thrilled to see 
another 300 girls enroll in that school as well. They are in 
the midst of building it at present. Also in Bekaa Valley.
    Senator Rubio. And I imagine the education--in what 
language are they learning?
    Ms. Stone. Arabic.
    Senator Rubio. It is primarily Arabic. Are they learning 
second languages as part of their education?
    Ms. Stone. Arabic is so vital. A lot of the girls have 
actually been out of school for up to 4 or 5 years, and it is 
not uncommon to sit with a girl and ask her to write something 
in Arabic and she can only remember sometimes how to write her 
own name. So we start with the language they learned in in 
Syria.
    Senator Rubio. How do you account for the different--so you 
are getting a 10-year-old girl, one of whom may be reading at a 
3rd grade level, one who may not be able to read at all, 
another who might be a bit more advanced for whatever reason. 
It must be a real mission to kind of put everyone at the right 
starting point.
    Ms. Stone. It is. You are exactly right. It is clear you 
studied the issue quite closely. This is a challenge, Senator, 
for anyone doing this work. It is how do you help kids catch up 
and catch up quickly so they can get back into school and then 
complete their education. And language is a barrier also in 
places like Turkey where kids are trying to learn, girls are 
trying to learn in Turkish when they are Arabic speakers and 
they may have been out of school for 3 or 4 years. So it is 
tremendously challenging. They have to take exams to get into 
the high school system in Turkey that are in Turkish. So not 
only are they trying to catch up, they are trying to learn 
another language which is very challenging.
    Senator Rubio. But I guess for lack of a better term, the 
grade they are in is not necessarily based on their age. It is 
based on their starting point.
    Ms. Stone. Exactly. There is a lot of support and funding 
and effort that has to go to helping them catch up, but they 
are able if they are given the opportunity.
    Senator Rubio. Well, I appreciate all of you being here. We 
have gone a little longer than we were supposed to be 
scheduled, but this is such an important hearing. I want to 
thank all of you for being a part of this. This is an 
incredibly important issue, as you heard from the first panel.
    And it is important for us not just to hear from the U.S. 
Government side, which we did and we are grateful for their 
service, but also from those who are on the front lines in the 
nongovernmental organizations, in particular the three 
recommendations that you have made, Ms. Stone, about the 
increase in the funding, ensuring that the funding is going to 
local partners and empowering local organizations who can, in 
turn, become force multipliers, not simply running it through 
our own systems. We are not just there to put money in but also 
to empower local capacity.
    And the third is a very interesting one and that is finding 
out from CBO, from the Congressional Budget Office, just how 
much of all this money is actually being targeted specifically 
at secondary education for girls are good suggestions. The 
third one, in particular, is one that I think we can follow up 
on.
    So I am grateful to all of you for being here, and I thank 
you for your patience, for your testimony, for the time that 
you spent, for the work that you are doing on this incredibly 
important issue.
    So all I would say is that the record of this hearing is 
going to remain open for about 48 hours. There are some members 
that could not attend. We had some other Foreign Relations 
Committee activity going on separate from this. But their 
staffs are here. They are watching on C-SPAN 14 or whatever 
channel we are on. So there may be some questions that may come 
to you in writing, some follow-up questions from some of our 
other members or maybe even from our office. And I would just 
ask if you get that--I know you are all very busy--but to the 
extent you could answer that, it is important. The record of 
this hearing in many ways will help shape the congressional 
debate as we move forward on things like the suggestions you 
have all made.
    So thank you all for being here.
    And with that, this hearing is adjourned.
    [Whereupon, at 12:16 p.m., the hearing was adjourned.]


                              ----------                              


              Additional Material Submitted for the Record


            Response to Questions for the Record Submitted 
                 to Catherine Russell by Senator Boxer


    Question.  How will the U.S. Government measure progress for the 
objectives outlined in this strategy, specifically enhancing girls' 
access to quality education in safe environments? Has the U.S. 
Government established targets for the recruitment and training of 
female teachers, a key component of expanding access to girls' 
education?

    Answer. The United States Global Strategy to Empower Adolescent 
Girls is the first U.S. strategy to focus on this age group. 
Furthermore, the United States is the first country in the world to 
develop a strategy solely focused on the protection and advancement of 
adolescent girls. The Strategy brings together four government 
agencies--the Millennium Challenge Corporation, the Peace Corps, the 
State Department, and United States Agency for International 
Development--to address challenges related to adolescent girls' safety, 
health, and education.
    Pursuant to the objectives of the strategy, efforts will be 
coordinated across the U.S. government and integrated into agencies' 
ongoing work. Agencies will implement the strategy through a range of 
approaches appropriate to their respective mandates. Agency 
implementation plans outline the specific modalities that each agency 
will adopt to achieve the goals and objectives of the strategy.
    The strategy calls for an interagency working group to meet 
regularly to coordinate overall implementation and measure agencies' 
progress in achieving its goal and objectives. Additionally, both State 
and USAID's implementation plans include a set of illustrative specific 
indicators against which efforts could be tracked. Progress will be 
assessed in line with various existing policies and strategic 
frameworks, including the Department of State's Policy Guidance on 
Promoting Gender Equality, USAID's Gender Equality and Female 
Empowerment Policy; MCC's Gender Policy, the United States Strategy to 
Prevent and Respond to Gender-based Violence Globally, and the National 
Action Plan on Women, Peace, and Security.
    The Department of State will primarily implement the strategy 
through diplomatic engagement, including through multilateral and 
bilateral diplomacy and public engagement. Priority thematic areas for 
the Department's implementation of the strategy include addressing 
harmful practices affecting adolescent girls, in particular early and 
forced marriage and female genital mutilation/cutting, and promoting 
legal and policy frameworks that empower girls and advance their 
rights, including those that expand girls' access to education. Among 
U.S. government agencies, the Department of State is uniquely 
positioned to address these issues given its focus on promoting and 
protecting human rights and ensuring that governments are effective and 
accountable. These priorities also reflect the U.S. Government-wide 
commitment to achieving the Sustainable Development Goals. In addition 
to diplomacy and public engagement, the Department will also seek to 
enhance and expand programming to empower adolescent girls; strengthen 
coordination around issues affecting girls; and integrate a focus on 
adolescent girls throughout the Department of State's operating 
structure.
    The illustrative indicators included in the Department's 
implementation plan are linked to these approaches--for example, the 
strategy recommends that increased diplomatic engagement on issues 
affecting adolescent girls be tracked through the number of resolutions 
supported by the United States in multilateral fora on issues affecting 
adolescent girls, or the number of laws drafted, proposed, or adopted 
with U.S. Government assistance designed to protect girls' rights, 
prevent or respond to gender-based violence, or expand girls' access to 
education, health, and services.
    To assist our colleagues in implementing this strategy, the Office 
of Global Women's Issues has developed a toolkit that provides specific 
examples for bureaus, offices, and embassies on how to build a focus on 
adolescent girls into their ongoing work and to track their progress. 
This toolkit will be transmitted via front channel cable in the coming 
days.
    The Department's efforts to promote and protect and advance girls' 
human rights will be complemented by USAID's work to empower girls 
through development assistance around the world. USAID's implementation 
plan prioritizes building on the agency's existing work with adolescent 
girls across sectors by focusing on reducing gender disparities in 
access to education; reducing gender-based violence, such as ending 
harmful cultural practices of early and forced marriage; and increasing 
the participation of women and girls in decision making.
    These efforts continue to be coordinated and advanced across the 
Agency by mainstreaming and integrating issues that impact adolescent 
girls across sectors; documenting progress, integrating lessons 
learned, and promoting best practices; and expanding collaborations and 
partnerships. USAID will continue to prioritize expanding into emerging 
fields to meet the needs of adolescent girls, and to consider the 
challenges of adolescent girls in program design and implementation.
    In particular, USAID supports efforts to provide a quality 
education to adolescent girls, a key component of which is teachers' 
professional development.
    In 2015, USAID education programs trained more than 464,000 
teachers and educators of whom some 242,000 were women. Support for 
teachers has been an integral component of the Agency's programs under 
the USAID Education Strategy, which also include broader policy reform 
efforts, working with communities, and providing textbooks and other 
teaching and learning materials. From 2011 to 2015, USAID reading 
programs reached nearly 19 million boys and 19 million girls. USAID 
education programs in conflict-and-crisis-affected environments 
improved or established quality education in safe learning environments 
for around 6 million boys and young men, and 6 million girls and young 
women. They also created learning opportunities for 2.4 million 
children and youth who would otherwise be out of school--around 1.1 
million of them are girls and young women, and 1.3 million boys and 
young men.
    The Department and USAID will continue to coordinate closely in 
achieving our shared goals--for example, the Department and USAID 
worked closely to select the Let Girls Learn Challenge Fund focus 
countries of Malawi and Tanzania, and are currently collaborating to 
design a holistic whole-of-girl program in each of these countries to 
increase adolescent girls' enrollment and retention in school that 
empowers them to achieve their full potential. Let Girls Learn programs 
focus on creating enabling environments in which girls can best learn 
and thrive, including preventing school-related gender-based violence, 
unwanted sexual attention on travel to and from school, and addressing 
harmful gender norms both in schools and in communities.


    Question.  I firmly support the establishment of the State 
Department's Office of Global Women's Issues, and have introduced 
legislation to make this office permanent at the State Department. This 
office plays a critical role in ensuring that women and girls play a 
central role in the development and execution of U.S. foreign policy.


   Please describe the specific efforts this office is undertaking to 
        expand access to education for girls worldwide. How does the 
        State Department plan to build on these efforts, moving 
        forward?

   How has the establishment of the Office of Global Women's Issues at 
        the State Department concretely advanced the status of women 
        and girls worldwide? How has the establishment of the 
        Ambassador-at-Large for Global Women's Issues impacted our 
        efforts with partner countries on women and girls?


    Answer. The Secretary's Office of Global Women's Issues (S/GWI) 
works to expand access to education for adolescent girls through a 
range of approaches, as outlined above. The central policy framework 
guiding our efforts in this area is the U.S. Global Strategy to Empower 
Adolescent Girls. S/GWI created and drafted the strategy, as well as 
the Department of State's implementation plan, and utilizes its 
expertise and resources to initiate policies across the Department in 
support of adolescent girls' development and empowerment.
    Through the leadership of Ambassador Catherine Russell and through 
broader bilateral and multilateral efforts, the Department engages 
diplomatically to urge other governments to focus their efforts on 
adolescent girls and address harmful norms and practices, as well as 
discriminatory legal and policy frameworks that restrict girls' access 
to education. S/GWI serves as a resource to colleagues throughout the 
Department, providing guidance and advice to assist officials in 
determining how best to advance girls' access to education through new 
or ongoing efforts. With advice and guidance from S/GWI, embassies and 
posts engage with governments where proposed policies would negatively 
impact adolescent girls' education, such as legislative or policy 
proposals that would lower the legal minimum age of marriage or 
penalize pregnant girls by limiting their access to schooling.
    These diplomatic efforts have proven to be successful. As an 
example, the Department, through S/GWI's guidance, secured bilateral 
commitments from Canada and the Nordic countries to address barriers to 
adolescent girls' education. These partnerships will allow fruitful and 
long-lasting cooperation on the education of adolescent girls.
    The flagship initiative focused on girls' education under the U.S. 
Global Strategy to Empower Adolescent Girls is Let Girls Learn (LGL), a 
global initiative announced by President Obama and championed by First 
Lady Michelle Obama that brings together the efforts of the U.S. 
government alongside outside donors and civil society organizations. 
Through LGL, agencies implement programs that focus specifically on the 
provision of education, and focus additional efforts on confronting the 
many barriers that prevent girls from attending school. As two 
examples, S/GWI is funding a $7 million program in Afghanistan that 
will address early and forced marriage as a barrier to adolescent 
girls' schooling and is funding a $750,000 program in Nepal aimed at 
reducing the prevalence of school-related gender-based violence and 
promoting equitable learning outcomes of adolescent girls.
    The Department will build on these efforts moving forward and 
integrate a Department-wide focus on these issues through its 
Adolescent Girls Strategy implementation plan. The implementation plan 
recommends that Ambassadors and officers at U.S. embassies raise issues 
affecting girls' education in bilateral dialogues, work with host 
government officials to learn more about barriers to girls' education 
in their respective countries, and advocate for more and more impactful 
attention to these issues in government policies and programs. It also 
recommends that political officers meet regularly with organizations 
that are working to empower girls or address barriers to their 
educations. Embassies are expected to make a concerted effort to engage 
adolescent girls and their communities through public diplomacy and 
outreach, as public engagement is a critical strategy in dispelling the 
harmful norms that devalue girls and girls' education. S/GWI has 
developed a comprehensive toolkit with specific recommendations for 
posts on implementing the strategy, and will continue to engage with 
posts to support them in these efforts and track progress against the 
indicators included in the Department's implementation plan.
    In his 2013 Presidential Memorandum on the Coordination of Policies 
and Programs to Promote Gender Equality and Empower Women and Girls 
Globally, President Obama stated: ``Promoting gender equality and 
advancing the status of all women and girls around the world remains 
one of the greatest unmet challenges of our time, and one that is vital 
to achieving our overall foreign policy objectives. Ensuring that women 
and girls, including those most marginalized, are able to participate 
fully in public life, are free from violence, and have equal access to 
education, economic opportunity, and health care increases broader 
economic prosperity, as well as political stability and security.''
    Achieving these goals requires dedicated resources, personnel with 
the appropriate expertise, and senior leadership. The Secretary's 
Office of Global Women's Issues (S/GWI) provides leadership and 
expertise within the Department of State and across the foreign affairs 
agencies to advance gender equality and to empower women and girls 
around the world. The office has promulgated important policy 
frameworks that incorporate a broad range of governmental partners, and 
serve as platforms for partnership with civil society actors. These 
frameworks include: the U.S. National Action Plan on Women, Peace, and 
Security; the U.S. Strategy to Prevent and Respond to Gender-based 
Violence Globally; the U.S. Global Strategy to Empower Adolescent 
Girls; and the U.S. Department of State Strategy for Women's Economic 
Empowerment. These strategies provide concrete tools and technical 
assistance to embassies and consulates, and the office, S/GWI, serves 
as a critical hub for expertise and resources to guide and advance U.S. 
Government engagement on gender issues.
    The Ambassador-at-Large for Global Women's Issues enhances the 
United States' ability to engage bilaterally with senior leadership in 
countries around the world on issues of women's empowerment and 
violence against women and girls. Through this engagement, the 
Ambassador-at-Large encourages countries to develop and implement laws 
and policies to improve gender equality and shares promising practices 
and lessons learned from the United States and other countries. The 
placement of a senior level diplomat within the office of the Secretary 
of State enables more effective organization of efforts within the USG, 
more coordinated policies and programs across government, and less 
duplication of efforts. To cite just one example among many, as a 
result of the Ambassador's leadership, the Department--in coordination 
with the Office of the U.S. Trade Representative, USAID, the U.S. 
Department of Commerce, and Pakistan's Ministry of Commerce--launched a 
U.S.-Pakistan Joint Implementation Plan on Women's Entrepreneurship and 
Economic Empowerment last month. A dedicated senior diplomatic position 
makes clear to other governments the importance the United States 
places on advancing the rights of women and girls and provides policy 
leadership and guidance within the State Department on these issues.
    The Ambassador and the Office are uniquely positioned to advance 
programs that focus on advancing the status of women and their 
communities. By virtue of having an office and a highly-ranked position 
devoted to this focus, the U.S. Government more effectively contributes 
to and incorporates research and innovation happening outside of 
government, and brings innovation broadly into government programs and 
policies. The efforts described below provide four concrete examples.


 1. Through the Global Women, Peace and Security Initiative, which has 
        provided over $13 million in small grants to support 55 
        projects in 30 countries, S/GWI builds the capacity of civil 
        society organizations around the world to advance the human 
        rights of women and girls.


 2. S/GWI and the Bureau of Democracy, Human Rights, and Labor (DRL), 
        are assessing the problem of early and forced marriage within 
        Syrian refugee and host communities in Turkey, Jordan, and 
        Lebanon and based on recommended actions, will fund specific 
        programming to address this problem.


 3. S/GWI implements the Secretary's Full Participation (FP) Fund, 
        launched in 2013 to help American diplomats and development 
        professionals better support gender equality and women's 
        empowerment. The FP Fund provides seed money to diplomatic 
        posts, bureaus and offices to support innovative gender 
        integration initiatives. Through the FP Fund, S/GWI has 
        collaborated with public and private sector partners to develop 
        entrepreneurship and business centers focused on women in 
        Pakistan, Cambodia and Papua New Guinea. These centers serve as 
        sites for training, meetings, mentoring, technology support, 
        and some offer programming to engage men and boys and to 
        prevent and respond to gender-based violence. The Centers help 
        to build the capacity of women business owners and support 
        women-led businesses.


    The FP Fund enabled the Department and USAID to establish a program 
dedicated to addressing the issue of Female Genital Mutilation/Cutting 
in Guinea. The Department partnered with the Government of Guinea and 
with multilateral and civil society actors to work to eliminate the 
practice in Guinea's eight districts--impacting up to 65,000 girls 
through community awareness and capacity- building efforts.
    Through the Secretary's International Fund for Women and Girls, the 
Office has also led the charge in strengthening civil society and 
private sector partnerships to support women and girls in the areas of 
health, peacebuilding, addressing gender-based violence, as well as 
supporting women's economic empowerment and entrepreneurship. As a 
recent example, S/GWI partnered with Kiva to launch the Women's 
Entrepreneurship Fund to empower women entrepreneurs globally by 
increasing their access to finance. The Fund provides companies, 
foundations, and governments with an opportunity to leverage their 
capital by matching, dollar-for-dollar, Kiva lenders investing in women 
entrepreneurs and an opportunity to reinvest their resources in new 
entrepreneurs after their loans are repaid. S/GWI also assisted in the 
creation of the Alliance for Artisan Enterprise, an international 
public and private sector partnership housed at the Aspen Institute, to 
find markets for and elevate the importance and productivity of artisan 
enterprises. Our engagements with these key partners helps to advance 
foreign policy priorities.

                                  [all]
                                  
                                  
</pre></body></html>
